<html>
<title> - THE INTERNET OF CARS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]












                          THE INTERNET OF CARS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                AND THE

                 SUBCOMMITTEE ON INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2015

                               __________

                           Serial No. 114-55

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-974 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
Michael Kido, Staff Director, Subcommittee on Transportation and Public 
                                Assetts
   Troy Stock, Staff Director, Subcommittee on Information Technology
                           Sarah Vance, Clerk
             Subcommittee on Transportation & Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DESAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair

                 Subcommittee on Information Technology

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 18, 2015................................     1

                               WITNESSES

Mr. Nat Beuse, Associate Administrator, Vehicle Safety Research, 
  National Highway Traffic Safety Administration, U.S. Department 
  of Transportation
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Harry M. Lightsey, III, Executive Director, Global Connected 
  Customer Experience, Global Public Policy, General Motors 
  Company
    Oral Statement...............................................     9
    Written Statement............................................    10
Mr. Sandy Lobenstein, Vice President, Connected Services and 
  Product Planning, Toyota Motor Sales, USA
    Oral Statement...............................................    10
    Written Statement............................................    12
Mr. Diarmuid O'Connell, Vice President of Corporate and Business 
  Development, Tesla Motors, Inc.
    Oral Statement...............................................    12
    Written Statement............................................    13
Mr. Dean C. Garfield, President and CEO, Information Technology 
  Industry Council
    Oral Statement...............................................    13
    Written Statement............................................    15
Ms. Khaliah Barnes, Associate Director, Administrative Law 
  Counsel, Electronic Privacy Information Center
    Oral Statement...............................................    15
    Written Statement............................................    17

                                APPENDIX

Letter from Consumer Technology Association......................    44

 
                          THE INTERNET OF CARS

                              ----------                              


                      Wednesday, November 18, 2015

                  House of Representatives,
 Subcommittee on Transportation and Public Assets, 
        joint with the Subcommittee on Information 
                                        Technology,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:00 p.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the Subcommittee on Transportation and Public 
Assets] presiding.
    Present from the Subcommittee on Transportation and Public 
Assets: Representatives Mica, Amash, Duckworth, DeSaulnier, and 
Boyle.
    Present from the Subcommittee on Information Technology: 
Representatives Hurd, Farenthold, Walker, Blum, Kelly, 
Connolly, and Lieu.
    Also Present: Representative Chaffetz.
    Mr. Mica. Good afternoon. I'd like to welcome everyone to 
the Subcommittee on Transportation and Public Assets and also 
the Subcommittee on Information Technology hearing today. And 
this meeting will come to order. Without objection, the chair 
is authorized to declare at any time a recess.
    The order of business will be as follows. Since we have a 
joint subcommittee hearing today, we'll have opening statements 
from myself, Mr. Hurd, Ms. Duckworth, Ms. Kelly. And after that 
we will hear from our witnesses. And then--well, after we have 
heard from all the witnesses we'll go into questions.
    So with that, I'll give the first opening statement. And, 
again, welcome everyone.
    It's interesting the age that we live in of new technology 
and communications. With all of the incredible technology that 
we see and take for granted every day, we're entering a new era 
in transportation technology. And there's some of the older 
panelists or members and audience will remember when you used 
to open the hood of a car and you could take out the various 
parts, identify everything. Now you need almost a Ph.D. degree 
to figure out what's in there, and its capabilities are just 
astounding. A lot of safety features in cars we didn't have 
before.
    But we today are going to address the issues relating to, 
again, what we call the Internet of Cars and look at some of 
the implications of that technology. And I think some of this 
was highlighted just some time ago when, I guess it was a Jeep 
vehicle was hacked. And fortunately it wasn't folks who chose 
to do harm, but it did demonstrate that vehicles with certain 
types of electronic capability can, in fact, be hacked, and it 
does pose some questions.
    We've called together today leaders of industry and some 
others. We have NHTSA. But I particularly want to thank the 
private sector partners.
    Several weeks ago we had a roundtable and an open and frank 
discussion of kind of where we are and where we're going and 
what the industry's doing to deal with some of these issues. 
And I think they've been most cooperative and I appreciate 
that. And we learned a lot from that particular informal 
meeting.
    Today is a little bit more formal. We do have a lot that we 
can--a lot of benefits too. In 2010, there were 1.2 million 
deaths on the world's highways. The United States, some 10 
years ago, we had 43,000 deaths. We have taken that down to 
33,000. And there are a lot of positive things that have been 
done, again through safety, technology, warning systems, a 
whole host of electronic devices now in our vehicles that make 
us safer.
    The positive economic benefit from connected vehicles is 
estimated to be $500 billion. And we want to ensure that the 
electronic systems we have in these vehicles can't be hacked, 
that, in fact, that we have safety provisions put in and 
protections for the consumer and for the public.
    In 2012, when I helped author the MAP-21 bill, we directed 
the National Highway Traffic Safety Administration to complete 
a review and ultimately determine the needs for safety in 
vehicles and electronic systems. We'll hear from some folks 
today where they are in the requirement that we crafted and put 
in that bill. We're now a year and a half past the deadline we 
set in law.
    Automakers have fortunately been setting their own 
cybersecurity standards, which is the good news. The bad news 
is that we have a lot of variety and people going in different 
directions. While the National Highway Traffic Safety 
Administration continues to move forward mandating dictated 
short-range communication devices in cars, we must make certain 
that this technology hasn't been surpassed by the next best 
thing that's coming up, and advances in technology are rapid.
    We've spent over $500 million on testing just this 
technology that was discovered in 1999. And in 1999 the state 
of the art for some of our communications was the flip phones. 
And we've come a little bit further from that.
    So while I fully support connected vehicle technology and 
help with its advancement, in the future we'll see vehicles 
that can talk to each other, we'll see safety provisions in 
vehicles that will make cars safer and more reliable and have a 
whole host of features that will benefit the consumer and the 
traveling public. But we must be able to allow a bridge to get 
to that environment as the new technologies come to light while 
remaining cognizant of the need for consumer privacy.
    So this afternoon I look forward to hearing testimony from 
our potential witnesses. And I pledge to work collaboratively 
with everyone here on this side, both sides of the aisle, and 
with the industry. I think we're entering a new exciting era, 
but we want to be ready for it.
    Let me now recognize Ms. Duckworth, the ranking member of 
the Subcommittee on Transportation and Public Assets, for her 
opening statement.
    Ms. Duckworth. Thank you, Chairman Mica. And welcome both 
to Chairman Hurd and Ranking Member Kelly. Welcome also to our 
witnesses.
    Today there are an estimated 5 billion devices that make up 
the ecosystem that we call the Internet of Things. It's not 
just Fitbits, smartphones, and baby monitors that communicate 
over the Internet. Our motor vehicles are computers on wheels 
that rely on the same methods of communication. And as we've 
seen too many times, computers and computer networks are 
regularly the victims of hackers.
    We've already mentioned the July instance this year when a 
vehicle was hacked. Less than a month later from that instance 
a researcher demonstrated how vulnerabilities in a different 
manufacturer's vehicle could also let hackers learn the owner's 
home address, steal credit card information, and much more.
    So far there have been no known incidents of malicious 
attempts to hack vehicles. But I have to ask the witnesses here 
today, is that because the overall security of the vehicle 
computers is that good or have we simply been that lucky?
    Congress gave the National Highway Transportation Safety 
Administration the responsibility to regulate cybersecurity in 
vehicles. But manufacturers and suppliers are in the best 
position to identify weaknesses in their own products. Ensuring 
the cyber safety of cars, vans, trucks, and motorcycles on the 
nearly 4 million miles of roads that crisscross the United 
States requires partnership of government, industry, and 
researchers. Each has an important role to play.
    That's why I find it especially troubling that, according 
to Bloomberg, one of the automobile manufacturers involved in 
the July hack waited 18 months--18 months--to tell Federal 
safety regulators about the security flaw, while the other 
manufacturer reportedly knew about this vulnerability for 5 
years.
    Those failures by manufacturers to report cybersecurity 
vulnerabilities to the Federal Government undermine the 
partnership that is necessary to protect the public safety from 
cybersecurity threats. That is simply unacceptable.
    As Transportation Secretary Foxx said in May, ``Connected 
automated vehicles that can sense the environment around them 
and communicate with other vehicles have the potential to 
revolutionize road safety and save thousands of lives.'' I 
agree with him.
    I look forward to examining these issues in more detail and 
thank the chairman for bringing this hearing. Thank you.
    Mr. Mica. Thank you, Ms. Duckworth.
    I'd now like to recognize Mr. Hurd, who chairs the 
Subcommittee on Information Technology, for his opening 
statement.
    Mr. Hurd.
    Mr. Hurd. Thank you, Chairman Mica.
    Today's hearing is one of a series of hearings the IT 
Subcommittee intends to hold on emerging technologies. And we 
are proud to join with you and the Transportation Subcommittee 
here today.
    My first car was as a Toyota 4Runner, and I liked to call 
her Shirley Marie. I got her in the summer of 2000 and had the 
car up until the summer of 2013. We had a lot of adventures 
together, but one thing she couldn't do was connect to the 
Internet.
    And flash forward to 2020. Gartner forecasts that about one 
in five vehicles on the road worldwide will have some form of 
wireless network connection by 2020, amounting to more than 250 
million connected vehicles. A recent study by the McKinsey 
Global Institute predicts that the Internet of Things, which 
includes the Internet of Cars, could have a total potential 
economic impact of between $4 and $11 trillion by 2025. The 
report further states that the hype around the Internet of 
Things may actually understate the full potential.
    I agree. The hype likely does understate the full 
potential, but only if policymakers, industry, consumers, 
privacy advocates, and other stakeholders understand where real 
value can be created and focus on supporting innovation and 
cybersecurity and privacy best practices. I worry that 
overeager regulators in Congress will overact to a stunt hack 
with restrictive regulations and heavy-handed legislation.
    I look forward to hearing from our witnesses from the 
automotive industry today on what steps they are taking 
proactively to secure their connected vehicles and protect 
people's safety as well as their privacy.
    I look forward to hearing from Mr. Garfield on what the 
many innovative companies he represents are doing to ensure the 
same, that people are safe, that their information is secure, 
so that they can be confident and embrace the benefits offered 
by connected vehicles.
    And I look forward to hearing from Mr. Beuse on what NHTSA 
is doing to achieve the highest standards of excellence in 
motor vehicle and highway safety while staying strictly within 
their statutory authority and taking care not to hamper 
innovation.
    I yield back.
    Mr. Mica. Thank you, Mr. Hurd.
    And I'm please now to recognize Ms. Kelly, who is the 
ranking member of the Subcommittee on Information Technology.
    Welcome again, and you're recommended.
    Ms. Kelly. I thank Chairman Hurd and Chairman Mica, as well 
as Ranking Member Duckworth and our witnesses for today's 
important conversation.
    Today's cars have been dubbed computers on four wheels. 
They gather and store a vast array of personal information 
about their drivers, affording greater convenience and safety, 
but also greater erosion of privacy and security. Our 
automakers, as they long have, are inventing new technologies 
that have made the driver's experience more enjoyable and 
efficient. Over-the-air and vehicle-to-vehicle technologies, 
things that were once only science fiction, can save lives and 
help prevent accidents.
    But with great innovation comes new questions over security 
challenges and how data is stored and used. As the number of 
Internet-connected cars grows, so too does the threat of 
vehicle hacking. If cars are going to store personal sensitive 
information about where the driver lives, the route the driver 
takes to get there, and where the driver stops along the way, 
there should be assurances that the information is stored 
securely and protects the identify of the driver.
    Our subcommittee's review of previous cyber attacks on 
government and corporate computer networks revealed that the 
same vulnerabilities show up time and time again. The 
interconnectivity of seemingly unrelated parts of the networks 
makes it substantially easier for a hacker to move through a 
network and locate sensitive personal information.
    But it's not just computer systems that lack segmentation. 
Seemingly unrelated components of Internet-connected cars do as 
well. A modern car's brakes can talk to its radio. The radio 
can tell whether the doors are locked and the doors know 
whether the windshield wipers are on.
    One of the key topics of today's hearing for me is whether 
the auto industry is designing cars with operating systems that 
securely store personal and technological innovation, I'll be 
focused on how automakers, Congress, and regulators can work 
together to secure our vehicles from malicious attacks and 
protect Americans and their data.
    I thank our witnesses for their participation today and 
look forward to hearing your thoughts on how we can achieve 
this goal.
    Chairman Hurd, Chairman Mica, I'd like to yield the 
remainder of my time to the gentleman from California, 
Representative Lieu.
    Mr. Lieu. Thank you, Ranking Member Kelly, for yielding the 
time.
    And thank you, Chairman Mica, Chairman Hurd, and Ranking 
Member Duckworth, for calling this important hearing.
    The Internet of Things brings technology and connectivity 
into every corner of our lives, including our cars. With the 
pervasiveness of technology, cybersecurity standards and 
privacy protections become more important than ever. Unlike 
other sectors, security and privacy by design are not yet fully 
engrained in automotive manufacturing culture, as evidenced by 
the news regarding cars' cybersecurity issues with wireless 
entry keys and hacks of cars.
    However, regulation can be slow, rigid, and discourage 
innovation if done wrong. Rushing to regulation is not, in my 
opinion, the answer, but neither is a lack of accountability or 
standards. The advances that the industry has made in the past 
year, such as setting up an Information Sharing and Analysis 
Center and a set of enforceable privacy principles, have been 
done in part because of public and government pressure.
    The Security and Privacy in Your Car Study Act, also known 
as the SPY Car Study Act, a bipartisan bill cosponsored by 
Congressman Joe Wilson and myself, is a step in bringing 
industry advocates and government together to strike a balance 
between innovation and consumer protection.
    I serve on Active Duty in the military. I'm still in the 
Reserves, and I'm trained to think about worst-case scenarios. 
So there are three overarching scenarios and questions I'd like 
to pose to the panel. Hopefully during the time today you might 
be able to answer it.
    The first is, is it possible now or in the future for a 
hacker to remotely take control of a car and use it either as a 
weapon or cause an accident?
    Second, is it possible now or in the future for a hacker to 
take control of a fleet of cars and use them as weapons or 
cause accidents?
    And then, third, is it possible for a hacker now or in the 
future to take partial control over cars? So let's say you're 
going down a highway at 60 miles per hour and suddenly the 
brakes go on without your knowledge thereby causing an 
accident. And I'd be curious to know if, one, those are 
theoretical possibilities, and then, second, if so, what can be 
done to mitigate that aspect.
    Americans have a right to drive cars that are safe and to 
keep their information about their daily lives private. I look 
forward to hearing the testimony from today's panel of 
witnesses and look forward to asking additional questions on 
this issue of public importance.
    Thank you. And I yield back.
    Mr. Mica. Thank the gentleman.
    Since thereare no other statements, any other members have 
any quick statements?
    Okay. Then the chair will hold the record open for 5 
legislative days for any member who'd like to submit a written 
statement.
    Mr. Mica. Let's turn now to recognizing our panel of 
witnesses. I'm pleased to welcome first Nat Beuse, who is the 
associate administrator, vehicle safety research, at the 
National Highway Traffic Safety Administration at the United 
States Department of Transportation. Mr. Harry Lightsey, who's 
the executive director of global connected consumer experience 
and global public policy at General Motors Company. Mr. Sandy 
Lobenstein, and he is the vice president of connected services 
and product planning at Toyota Motor North America. And Mr. 
Diarmuid O'Connell, and he is vice president of corporate and 
business development at Tesla Motors, Inc. Mr. Dean Garfield, 
he is the president and CEO of the Information Technology 
Industry Council. And finally, Ms. Khaliah Barnes, and she is 
the associate director and administrative law counsel at the 
Electronic Privacy Information Center.
    So welcome all of our witnesses. I might tell you too in 
advance that I'll swear you in, in just a second. And we also 
try to get you to limit your statement, your verbal statement 
before the committee to 5 minutes. You can ask through the 
chair to have additional information or data put into the 
record.
    So with that, we are an investigative and oversight 
committee and subcommittees of Congress. If you'd please stand 
and I'll swear you in. Raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this joint subcommittee meeting of 
Congress is the whole truth and nothing but the truth?
    Let the record reflect that all the witnesses answered in 
the affirmative.
    Thank you. Be seated.
    Okay. We'll go right to our witnesses. And let me start 
first with Mr. Beuse. Welcome him again, and all of you, and 
thank you for your cooperation today. And he is the 
administrator of the vehicle safety research at the National 
Highway Traffic Safety Administration.
    Welcome, and you're recognized, sir.
    And you all bring the mics up as close as you can so we can 
hear you.

                       WITNESS STATEMENTS

                     STATEMENT OF NAT BEUSE

    Mr. Beuse. Good afternoon, Chairmen Mica and Hurd, Ranking 
Members Duckworth and Kelly, and members of the subcommittees. 
I appreciate this opportunity to testify about how the National 
Highway Traffic Safety Administration, or NHTSA, is addressing 
emerging challenges associated with new connected vehicle 
technologies.
    In 2013, there were over 5.7 million vehicle crashes in the 
United States that resulted in 32,719 deaths. The consequences 
of these crashes ranged from personal tragedies that will 
impact individual families forever to the billions in economic 
dollars that we can actually measure.
    NHTSA's mission is to address these crashes and the 
increasing use of connected and automated vehicle technologies 
we believe can help us do that. When combined together, new 
technologies such as vehicle-to-vehicle communications, or V2V, 
and automated technologies have the potential to dramatically 
change the safety picture in the United States.
    However, as the chairman pointed out, these new 
technologies also bring new and different challenges. For 
example, consumers hear a lot about cybersecurity as it is 
related to banks and personal information. Indeed, it often 
seems like every day or every other day there is a breach 
reported in the media. Now in the auto space cybersecurity is 
taking on new visibility, even showing up in TV shows as 
recently as this past weekend. NHTSA understands these dynamics 
but believes that the challenges associated with connected 
vehicles are addressable and they should not keep us from 
pursuing the innovations that can save lives.
    Testing and analysis indicates that V2V can address up to 
approximately 80 percent of crashes involving two or more motor 
vehicles. This technology promises to be transformative and 
could even enable a new era of safety that not only saves 
lives, but brings other benefits as well.
    When fully realized, this communication technology is 
extendable even beyond vehicles and the infrastructure. It can 
be deployed to other devices that would be carried by 
pedestrians and cyclists, thereby addressing those types of 
crashes as well. However, for V2V to be effective, it relies on 
a robust security system and for the vehicles themselves to be 
secure.
    In exploring the potential of connected vehicles and other 
advanced technologies, NHTSA understood that cybersecurity 
would be essential to the public acceptance of new vehicle 
systems and to fulfill the safety promise they hold. To develop 
a robust cybersecurity environment, NHTSA modified its 
organizational structure, developed vital partnerships, adopted 
a layered approach, considered legislative actions, and 
encouraged members of the industry to take independent steps to 
help improve the cybersecurity posture of vehicles. NHTSA's 
goal is to be ahead of potential vehicle cybersecurity 
challenges and seek ways to address them.
    NHTSA consulted other government agencies, vehicle 
manufacturers, suppliers, and the public to develop its cyber 
program. The approach covers various safety-critical 
applications deployed on current vehicles, as well as those 
envisioned for future vehicles that may feature more advanced 
forms of communications and automation.
    However, we also believe there are tremendous opportunities 
in this realm for proactive steps. In fact, such steps are 
essential. Regulation and enforcement alone will not be 
sufficient to address these risks. Cybersecurity threats simply 
move too fast and are too varied for regulations to be the only 
answer.
    The auto industry can play an essential role by 
cooperatively establishing rigorous best practices that address 
the broad range of cyber threats, by reacting quickly and 
appropriately when such threats emerge, and by working closely 
with the government and independent security analysts to 
identify and defeat attacks.
    NHTSA and DOT have also given special consideration to the 
security system that enables V2V technology. USDOT and many, 
many partners have spent some time developing the network and 
this trusted architecture that goes along with this system. 
While we have made significant progress, we believe that more 
testing is necessary and we plan to undertake that work.
    The trust aspect of the system is based on PKI. Though 
extensively used today, NHTSA and its research partners 
actually tweak the design to balance security and privacy. We 
take consumers' privacy very seriously, and in the context of 
our notice of proposed rulemaking on vehicle-to-vehicle 
communications, we will address privacy as it relates to that 
system.
    The effectiveness of V2V technology also relies on an 
allocated portion of spectrum. In light of growing demand for 
spectrum, spectrum sharing has been a topic of much discussion. 
DOT is not opposed to sharing the spectrum. Toward that end, 
DOT is working closely with FCC, NTIA, members of the industry, 
and other stakeholders on an expedited basis to test and 
evaluate potential sharing solutions for the 5.9 gigahertz 
spectrum. We are waiting for devices.
    Under the leadership of Secretary Foxx, the Department has 
taken several steps to support the deployment of V2V and V2I 
technology. In August 2014, NHTSA issued an advanced notice of 
proposed of rulemaking. In 2016, we plan to follow that up with 
a proposal. And just recently the secretary announced some 
pilot programs, all aimed to further deploy this technology.
    Connected and automated vehicles that can sense the 
environment around them and communicate with these other 
vehicles and with the infrastructure have the potential to 
revolutionize road safety and save thousands of lives. NHTSA is 
already laying the groundwork needed for the road ahead and 
looks forward to working with Congress, manufacturers, 
suppliers, others in the administration, and the American 
public in this exciting transportation future.
    I look forward to addressing your questions.
    [Prepared statement of Mr. Beuse follows:]
    [Written statements can be found here: https://
oversight.house.gov/hearing/the-internet-of-cars/]
    Mr. Mica. Thank you. And we'll withhold questions until 
we've heard from everyone.
    Let me introduce and welcome again Harry Lightsey, who is 
the executive director of global connected customer experience 
and global public policy a General Motors.
    Welcome. You're recommended.

              STATEMENT OF HARRY M. LIGHTSEY, III

    Mr. Lightsey. Thank you very much, Chairman Mica, Chairman 
Hurd, Ranking Member Duckworth, and Ranking Member Kelly. And 
thank you for the opportunity to testify before your 
subcommittees.
    In the roughly 100 years of its existence, the automobile 
has impacted American life in ways unique to any other machine. 
It has impacted how we live and work, where we live and work, 
how our cities have grown, and how our country has grown.
    Yet the machine itself remains basically what it was at the 
time of its inception: a gasoline combustion engine connected 
by a drive train to wheels on the road, driven by a human 
being. But we are now entering an era where all those basic 
tenets will change dramatically. Cars will more and more have 
different modes of mobility other than a gasoline engine. They 
will be connected to each other in ways that will make the 
driving experience safer and more enjoyable. And they will more 
and more relieve the human being of the driving task.
    Because we know that humans are fallible and will have 
crashes in cars, the automobile industry and the National 
Highway Transportation Safety Administration, or NHTSA, have 
spent the last half century designing and building automobiles 
to be safer when they crash, with innovations like seat belts, 
air bags, and crumple zones. Today we are designing and 
building automobiles to avoid collisions entirely, with 
technologies like forward and rear collision warning, backup 
cameras, lane keeping, and blind spot warnings.
    Increasingly, these technologies allow the machine to 
assist in the driving task itself when the human driver does 
not react appropriately or quickly enough to prevent a crash. 
Soon technologies like vehicle-to-vehicle communications will 
be deployed with the promise to impact over 80 percent of the 
crashes on today's roads. The savings in terms of lives saved, 
property damage prevented, medical costs, and congestion will 
be enormous.
    At General Motors, we are moving quickly to take advantage 
of these innovations. We are the first automobile manufacturer 
to build connectivity into our vehicles. And GM OnStar has over 
6 million customers in the United States and over 1 million 
customers connected on our 4G LTE broadband platform. We have 
deployed many advanced safety technologies into our vehicles, 
including announcing the deployment of vehicles with advanced 
review mirrors. And we are the only automaker that has 
announced the commitment to deploy vehicles with V2V technology 
with our Cadillac CTS model next year.
    However, we must acknowledge that with change comes 
challenge. We must deploy these innovations in the safest 
manner possible. We must commit to our customers that we 
respect their privacy and will protect their information. Our 
automobiles contain software that may have vulnerabilities that 
bad actors could exploit to threaten our customers' safety and 
privacy, and we must do all we can to prevent automobile 
hacking.
    We must realize that we are competing with other 
technologies for the use of scare resources like spectrum. We 
must be able to use these resources in an efficient manner so 
long as that use does not interfere with the safety-critical 
mission of our systems. If we have the freedom to innovate 
within these parameters, the promise of the future cannot be 
imagined today.
    Thank you, and I look forward to your questions.
    [Prepared statement of Mr. Lightsey follows:]
    [Written statements can be found here: https://
oversight.house.gov/hearing/the-internet-of-cars/]
    Mr. Mica. Thank you.
    And we'll now hear from Mr. Sandy Lobenstein, vice 
president of connected services and product planning at Toyota.
    Welcome, and you're recognized.

                 STATEMENT OF SANDY LOBENSTEIN

    Mr. Lobenstein. Thank you. Good afternoon.
    It's an exciting time for the auto industry. More vehicles 
are being connected and outfitted with advanced safety features 
and onboard connected safety services, as well as infotainment 
systems, and we have the ability to interact with these from a 
smartphone. The truth is, though, that we are only at the 
beginning of the beginning. The connected car of the future 
will far surpass the connected car of today with its features 
and capabilities.
    To address questions about the use of vehicle data, the 
auto industry came together and developed privacy principles 
for vehicle technologies and services. These privacy principles 
include meaningful protections, including heightened 
protections on the use of certain vehicle data, like the 
vehicle's location or how someone drives.
    For example, automakers agreed not to share data with third 
parties for their own use or to use this type of data for 
marketing purposes without the affirmative consent of the 
vehicle owner.
    With the privacy principles, the auto industry is at the 
forefront of protecting consumer data in the emerging Internet 
of Things. This code of conduct is precisely the type of effort 
that the government has encouraged from the private sector and 
it should serve as a model for other Internet of Things 
sectors.
    Cybersecurity is also a key focus, and although no criminal 
cyber attack on a vehicle has occurred, the auto industry is 
well aware that the cybersecurity risks that exist for other 
connected devices also exist for connected cars. We fully grasp 
the potential consequences of a successful real world attack.
    In that light, the auto industry is forming an ISAC to 
exchange information about cybersecurity threats to vehicles. 
Toyota is pleased to be serving as the first Auto-ISAC board 
chair, and we're fully committed to the Auto-ISAC's success. We 
expect initial information sharing from the Auto-ISAC beginning 
by the end of this year.
    Some are making the case that automotive-specific 
cybersecurity best practices and standards are needed. The 
question is whether automotive best practices will look any 
different than existing best practices that guide cybersecurity 
in other contexts.
    That being said, the auto industry recognizes that an 
effort to adapt existing best practices to the vehicle may be 
appropriate. That is why the industry has recently embarked on 
an effort to identify existing best practices that are being 
and can be applied to vehicles and to address any potential 
gaps.
    For the very same reasons that the government has refrained 
from mandating cybersecurity standards in other sectors, there 
is a significant risk with the government mandating 
cybersecurity standards for vehicles. Industry can move quicker 
than government to update out-of-date practices or to adjust to 
new threats. In addition, setting specific government standards 
may encourage some companies to simply comply, not to do more 
to protect consumers.
    Finally, a sector-specific approach will almost certainly 
have significant implications for the harmonious development of 
the Internet of Things at large.
    As the Internet of Cars evolves, we are also on the cusp of 
a radical transformation in vehicle safety that will be made 
possible by vehicle-to-vehicle communications. Dedicated short-
range communication, or DSRC, is a technology that will allow 
us to overcome the range, field-of-view, and line-of-sight 
challenges posed by sensor technology, enabling vehicles to 
identify collision threats at a greater distance or around a 
corner.
    When the FCC allocated spectrum in the 5.9 gigahertz band 
for DSRC, it spurred an extensive collaboration between the 
USDOT and the automobile industry on DRC development. The FCC 
is also currently exploring opening up the band to unlicensed 
devices.
    Due to the spectrum crunch, we support the prospect of 
sharing spectrum if it can be proven that no harmful 
interference will impair DSRC's safety-of-life mission. A 
promising proposal has been offered that has the potential to 
accomplish this goal. The proposal's developer and the auto 
industry have recently proceeded to validation testing, and we 
remain confident that it will be proven out as a workable 
spectrum-sharing solution.
    In closing, I'd like to provide two final observations. 
First, the Internet of Cars ecosystem is evolving. Technology 
companies, telecommunications providers, insurance companies, 
and others have introduced and will continue to introduce 
products and technologies designed to directly communicate with 
vehicles. As the ecosystem continues to evolve, responsibility 
for protecting vehicles from potential cyber attacks and for 
preserving consumer privacy should also evolve to include all 
relevant players in this space.
    Second, there's a number of Federal agencies that are 
seeking to oversee, regulate, or influence cybersecurity and 
privacy related to the Internet of Things either broadly or 
within narrow subsets. The resulting cacophony of working 
groups' efforts, initiatives, and proposals is exceedingly 
difficult to manage and prioritize. Without consolidation of 
these efforts, clarification of the roles of various agencies 
and better coordination, the opportunity provided by the 
Internet of Things will almost certainly suffer.
    Thank you for the opportunity to testify before you.
    [Prepared statement of Mr. Lobenstein follows:]
    [Written statements can be found here: https://
oversight.house.gov/hearing/the-internet-of-cars/]
    Mr. Mica. Well, thank you.
    And we'll recognize Mr. Diarmuid O'Connell, and he's vice 
president of business development for Tesla.
    Welcome, sir, and you're recognized.

                STATEMENT OF DIARMUID O'CONNELL

    Mr. O'Connell. Good afternoon. Thank you, Mr. Chairman, 
members of the committee. We appreciate the opportunity to come 
here today and for the opportunity to speak.
    Tesla cars are known for being exceptionally safe. 
Independent testing by NHTSA has awarded Tesla Model S, our 
current offering, the highest possible safety rating, five 
stars, not just overall, but in every subcategory without 
exception. Approximately 1 percent of all cars tested by the 
Federal Government achieve five stars across the board. Safety 
is a watchword at Tesla.
    Automotive injury and fatality rates have fallen 
significantly over the last several decades as a result of 
crash safety improvements such as air bags, energy-absorbing 
vehicle structures. And Tesla believes that in order to 
maintain the pace of reducing injuries and fatality rates, 
vehicles need to increasingly use computerized vehicle systems 
to avoid crashes with particular opportunity afforded in the 
fully connected vehicle space.
    Two examples of Tesla's connected car functionality leading 
to significant safety benefits compared to nonconnected 
vehicles are the following. The first would be automatic 
emergency braking, a vehicle feature which attempts to avoid 
accidents by applying brakes when a collision is believed 
imminent. Tesla is one of 10 vehicle manufacturers whohave 
committed to making this a standard feature in all vehicles and 
Tesla has already delivered on this promise.
    The same connected vehicle technology is applied to Tesla's 
autopilot functionality, where improvements are constant as 
vehicles effectively learn from varying road conditions and 
share those learnings with the entire fleet through 
connectivity.
    Several studies demonstrate that uptake rates of recalls in 
general are about 70 percent. That is to say that for a given 
vehicle fault that warrants a recall, about 70 percent of the 
vehicles affected will get repaired. Put another way, 30 
percent of vehicles will be left driving around in 
contravention of Federal safety standards or with a safety-
related defect.
    Connected vehicle technology offers a significant 
opportunity for us to do better. Modern vehicles are heavily 
software controlled and therefore software changes alone can 
often resolve a safety issue. In late 2013, Tesla became aware 
of a potential hazard believed to be related to incorrect 
third-party receptacle installation and wiring. After rapid 
investigation, a vehicle software change was identified. It was 
capable of detecting and solving the third-party fault. Because 
of Tesla's leading connected vehicle capabilities, the software 
solution was automatically delivered to the entire fleet.
    In contrast to the industry average, recall uptakes of 70 
percent, Tesla's automatic software updates can achieve uptake 
rates of nearly 100 percent within a short amount of time, 
measured in days.
    So precautions and concerns as we go forward. The first 
precaution is to ensure that any software updates to a vehicle 
are authorized by the manufacturer. This can be achieved by 
using industry standard cryptography, a technology referred to 
as signing.
    The second precaution is to strongly isolate networks from 
the mechanical systems of the vehicle. If a processor on the 
vehicle has network connectivity, the processor should not also 
have direct connections to the vehicle's mechanical systems, 
i.e., steering, acceleration, brakes, and gear selection. We 
don't have gear selection, but that's a separate matter. Some 
manufacturers implement this isolation with technology referred 
to as a gateway.
    The third precaution is to use industry standard encrypted 
communications protocols for connections to the vehicle. This 
ensures privacy and the integrity of data as it's transferred 
to and from the vehicle.
    With respect to regulation. We're in a period of rapid 
innovation for automotive safety. Tesla vehicle safety already 
significantly benefits from investments in vehicle 
connectivity. We expect innovation and success in delivering 
enhanced safety to only continue as the full potential of 
connected vehicles is realized. Overzealous or more 
particularly premature regulation that does not allow for 
innovation or creative solutions can actually deter or block 
safety innovations, and as a result, any move in this direction 
must be considered carefully and only to the extent absolutely 
necessary, in our view.
    Thank you again for the opportunity to provide this 
testimony, and we'll welcome any questions.
    [Prepared statement of Mr. O'Connell follows:]
    [Written statements can be found here: https://
oversight.house.gov/hearing/the-internet-of-cars/]
    Mr. Mica. I'd like to recognize Mr. Garfield. And he's with 
ITI.
    Welcome, and you're recognized.

                 STATEMENT OF DEAN C. GARFIELD

    Mr. Garfield. Thank you, Chairman Mica, Chairman Hurd, 
Ranking Member Duckworth, Ranking Member Kelly, members of the 
committee. On behalf of 65 of the most dynamic and innovative 
companies in the world, we thank you for hosting this hearing. 
It is perfectly timed before 42 million Americans get on the 
road to engage in their Thanksgiving commute. And I would 
suspect that 5 to 10 years from now the cars in that commute 
will look quite different. And so I'll focus my testimony on 
that issue, which is the transformation that's occurring, the 
innovation that's taking place in that space, first. And then, 
second, what we're doing to ensure that we accelerate 
deployment, but in a secure and safe way.
    It's often said that it's difficult to appreciate history 
when you're experiencing it and living in the middle of it. But 
from my conversation with our companies, we're living in an 
innovation renaissance. The convergence of almost ubiquitous 
broadband with exponential improvement in computational 
processing, as well as with low cost and almost unlimited 
storage, is transforming mobile computing. That includes the 
original mobile technology, which is the car.
    We see that manifested today in advanced driver assistance 
systems, whether that is the adaptive cruise control or 
automatic braking, which I have in my car, which has prevented 
accidents on multiple occasions. We'll see that in the future 
in what the other panelists have mentioned, whether it's 
vehicle-to-vehicle or vehicle-to-infrastructure communication 
or in autonomous vehicles.
    Our companies are working hard at deploying technologies to 
make those types of vehicles available sooner rather than 
later, whether that's dedicated short-range communications, 
advanced LTE, or 5G wireless. As a number of the panelists have 
noted, it is early days yet, and so it's impossible to tell 
which technology will work most effectively. What we do know is 
that there will be radical transformative improvement in 
safety, access, as well as how we view our cities.
    The other panelists have spoken about some of the safety 
issues, so I won't repeat that. But think about all of people 
today who aren't able to drive because of a disability or 
because they're too old or because they're too young. Through 
connected vehicles or autonomous vehicles, those people will 
have access to transportation in a way that they don't today.
    Similarly, when we don't have to think about cars being 
parked all the time, the way we think about our landscape on 
our cities will change dramatically. Our companies are 
investing billions of dollars to bring that to the market 
sooner rather than later and are partnering with many of the 
companies on this panel in order to make that possible, and as 
well working with the public sector to enable that.
    A big part of our work is ensuring that consumers have 
confidence in the safety and security of those vehicles and 
security will become even more prominent in the future. For us, 
we have long experience working on security issues, 
particularly cybersecurity, whether it's protecting networks 
from the network edge to the cloud and everything in between.
    And increasingly the norm is security by design, which is 
building in robustness, resiliency, and redundancy at the 
software and hardware level so it's not a latch-on later on. 
What that means is you can actually build into a chip set the 
encryption protocols to protect on unintended encroachment, as 
well as the ability to adapt if that encryption is 
circumvented.
    We have found it quite productive to work with NIST in 
advancing that work. NIST has taken a collaborative approach in 
working with the public and private sector, working together in 
coming up with a framework of standards and best practices 
while allowing sufficient flexibility for innovation.
    There is still work left to be done, and that speaks to the 
role that Congress can play. A number of the members of the 
panel have pointed to the number of efforts and initiatives 
that are being undertaken in this space. Congress can play an 
important role in bringing order to that cacophony, as Mr. 
Lobenstein identified.
    Second, there is really a need, and Ranking Member 
Duckworth made this point, for a national Information of Things 
strategy. There is so much work taking place in this space, but 
not much of it is well coordinated into a national strategy 
that serves our economic, security, and safety interests.
    Finally, once we look at what's being done and develop a 
strategy, there is an appropriate place for regulation to deal 
with market gaps, and we would advocate that the approach 
that's been taken by NIST in developing a regulatory framework 
that's based on best practices that also allows for flexibility 
is the appropriate approach.
    Thank you.
    [Prepared statement of Mr. Garfield follows:]
    [Written statements can be found here: https://
oversight.house.gov/hearing/the-internet-of-cars/]
    Mr. Mica. Thank you.
    And we'll recognize waiting patiently Khaliah Barnes, 
associate director and administrative law counsel at the 
Electronic Privacy Information Center.
    Welcome, and you're recognized.

                  STATEMENT OF KHALIAH BARNES

    Ms. Barnes. Thank you, Chairman Mica, Chairman Hurd, 
Ranking Member Kelly and Ranking Member Duckworth. I'm Khaliah 
Barnes, associate director and administrative law counsel for 
the Electronic Privacy Information Center.
    EPIC is an independent nonprofit research organization 
focused on emerging privacy and related human rights issues. We 
thank you for holding the hearing today and for taking time to 
consider the important privacy implications of the Internet of 
Cars.
    New vehicle technologies offer a variety of new services to 
American drivers and are quickly being implemented by car 
companies. But these new technologies, typically based on 
Internet connectivity, also raise substantial privacy and 
security concerns that Congress needs to address.
    As cars become more technologically sophisticated, they 
collect a lot of personal data, including physical locations, 
destinations, text messages, and phone records. Most car 
companies and other companies, including Google, fail to inform 
consumers of their data-collection practices, and few give 
consumers true control over their data.
    Auto companies also use personal driving information for 
various but vague purposes, which leaves consumers in the dark 
about who has access to their information and why. This 
information is often retained for years, if not indefinitely.
    The very real possibility of remote car hacking poses 
substantial risk to driver safety and security. Connected cars 
can be remotely hacked and controlled from anywhere in the 
world via the Internet where hackers can take control of 
various features, including brakes, steering, and car locks. 
Wireless hacking can also provide access to the car's physical 
location using built-in GPS navigation systems, which can 
facilitate crimes such as stalking, harassment, and car theft.
    Congress must enact meaningful safeguards to protect 
privacy and security in the Internet of Cars. Last year a group 
over 20 automakers, including General Motors and Toyota, signed 
a voluntary pledge for privacy and security. While the pledge 
is an important first step, it is no substitute for Federal 
baseline privacy and data security regulations. The pledge 
fails to provide essential privacy protections, lacks any 
meaningful enforcement, and supports the status quo of the 
wholesale collection of sensitive driver data.
    To protect the privacy and security of American drivers, 
Congress will need to do more. First, Congress should act on 
pending legislation. The SPY Car Act of 2015 would establish 
Federal standards for connected cars. The act empowers NHTSA, 
in consultation with the FTC, to develop cybersecurity and 
privacy regulations for driver data. The SPY Car Act provides a 
good framework for meaningful safeguards.
    There's also the House draft bill that would require car 
companies to develop modest privacy policies for the collection 
and use of driver information. The House draft falls short of 
providing robust privacy protections. The draft would not 
require manufacturers to actually develop or even implement 
privacy-protecting measures. Instead, the companies would only 
inform drivers about whether the company chooses to take 
various privacy-protecting measures. The draft also immunizes 
car companies from FTC scrutiny for simply developing a privacy 
policy. The draft would broadly criminalize vehicle hacking, 
including for research purposes.
    The Senate bill comes much closer to safeguarding the 
interests of American drivers than does the House draft. In 
fact, we would oppose enactment of the House draft, which would 
be a step backwards for Americans who are concerned about 
privacy and security.
    Second, Congress should establish fines for hacking 
connected cars, but only where there's malicious intent. This 
will permit research to uncover security vulnerabilities, many 
of which we've discussed today, while punishing hacking that is 
intended to cause harm.
    Third, Congress should grant NHTSA authority to issue 
privacy rules. The SPY Car Act of 2015, with its emphasis on 
enforceable NHTSA rules and civil fines for offenders, provides 
the type of privacy and security safeguards drivers need. As 
Congress moves forward, it is critical that NHTSA has 
rulemaking authority over the emerging industry. NHTSA's rules 
should incorporate practices detailed in the Consumer Privacy 
Bill of Rights, which is a sensible comprehensive framework for 
privacy protections that provide substantive privacy 
protections and would help establish fairness and 
accountability for the collection and use of driver 
information.
    Every day without car privacy and safety protections places 
countless drivers at risk of having their personal information, 
or worse their physical safety, compromised. It's time to put 
consumers back in the driver's seat when it comes to privacy. 
Congress must act swiftly to combat the current and future 
privacy threats posed by the Internet of Cars.
    Thank you for the opportunity to testify this afternoon, 
and I would be pleased to answer your questions.
    [Prepared statement of Ms. Barnes follows:]
    [Written statements can be found here: https://
oversight.house.gov/hearing/the-internet-of-cars/]
    Mr. Mica. Well, thank you. And I'll thank all of our 
witnesses. And we'll go right into questions.
    First, let me get to Mr. Beuse with the National Highway 
Traffic Safety Administration. In 2012, when I helped craft the 
MAP-21 legislation, I put a section 31402, Electronic Systems 
Performance, and it said specifically, ``Not later than 2 years 
after the date of enactment''--that was July, I'd give you 
August of 2012--that ``the Secretary shall complete an 
examination of the need for safety standards with regard to 
electronic systems in passenger motor vehicles.'' Then it has a 
couple of criteria.
    It says, ``Upon completion of the examination...the 
Secretary shall submit a report to committees.'' And I see I 
screwed up. I should have put the Department of Transportation 
in here too, because they don't have one, but we have Commerce, 
Science, and Transportation of the Senate, and Energy and 
Commerce in the House.
    Have you completed that report?
    Mr. Beuse. No, Mr. Chairman, that report is still under 
review. What we have done, which is unprecedented, which was we 
put the entire research program that we developed in 
consultation with other government agencies, the private 
industry, et cetera, out for public comment.
    Mr. Mica. So it's not--I mean, I guess I just put these 
things in law and then we just forget them. But it should have 
been July, we'll give you August, of 2014.
    Ms. Duckworth, isn't this 2015 and November? Okay. So we're 
a little bit behind.
    Mr. Beuse. Agree, it's taken way too long.
    Mr. Mica. And is there a draft?
    Mr. Beuse. There is a draft that's entering----
    Mr. Mica. Because I tried to get a draft from the 
committee, and they said they did not have one. This is from 
the--either of the committees. Can you submit to the joint 
subcommittees here a draft?
    Mr. Beuse. I'm not sure if I can, but we will take that 
back.
    Mr. Mica. You're not sure if you can?
    Mr. Beuse. The work that has been done that my office is 
responsible for----
    Mr. Mica. Yeah, well, we want to see it. You can, and you 
will, and we'll have it here within 10 days, okay?
    Mr. Beuse. Okay.
    Mr. Mica. All right. That's the way we operate here. So you 
didn't comply.
    We don't have any penalties now, do we, if someone hacks a 
vehicle? Ms. Barnes?
    Ms. Barnes. That is correct.
    Mr. Mica. Yeah, so the law is still pending. You favor the 
Senate's side as far as privacy in your testimony. But we have 
seen that they can be hacked. That's also correct.
    Ms. Barnes. That's also correct.
    Mr. Mica. Yeah. And so far no one with malintent has 
hacked, but you could probably stop an engine, you could 
disable brakes or steering, because all of those have 
electronic components. Would that be a good assumption? I'm not 
technologically competent, but----
    Ms. Barnes. That is correct, Chairman.
    Mr. Mica. Okay.
    Ms. Barnes. You would be able to disable those features.
    Mr. Mica. So they haven't acted and Congress hasn't acted. 
I have to put blame also on us.
    Then we gave a lot of money, maybe----
    Mr. Garfield. If I may.
    Mr. Mica. Yes, go right ahead, Mr. Garfield.
    Mr. Garfield. To suggest the implication of that colloquy 
suggests nothing is being done, when, in fact, much is being 
done.
    Mr. Mica. Well, it's not that nothing is being done.
    Mr. Garfield. Particularly on cybersecurity.
    Mr. Mica. We give certain directives. I was going to get to 
the question of them working with you all, both, and you did 
talk to NIST----
    Mr. Garfield. Correct.
    Mr. Mica. --which sets standards, and had pretty good 
report back, and NHTSA, both--everybody has participated?
    Have you participated, Mr. Lightsey, with them?
    Mr. Lightsey. Yes, Mr. Chairman, we embrace the NIST 
framework. We have adopted that into our----
    Mr. Mica. With both of those Federal agencies or with a 
private sector group?
    Mr. Lightsey. We have had discussions with NIST and with 
NHTSA.
    Mr. Mica. Okay.
    And you, Mr. Lobenstein? Yes?
    Mr. Lobenstein. Yes. We have also had discussions.
    Mr. Mica. Mr. O'Connell?
    Mr. O'Connell. To be factually perfectly accurate, I'm 
certain we are absolutely involved with NHTSA on an ongoing 
basis. I can't testify to the involvement with NIST.
    Mr. Mica. Okay. I just want to find out. And again, I 
commend you for coming together as an industry and working, and 
I don't want to imply that nothing has been done. But my job is 
to give certain directives to agencies, and then see if--I'm 
not here just, you know, to look good. I know I do. But----
    Mr. Garfield. Yes, you do, Mr. Chairman.
    Mr. Mica. But my job is to hold their feet to the fire, and 
when you put something in law, some of the newer members will 
find around here, you can put it in law, I put things in law 
three, four times, and they still don't comply. But we won't go 
there today.
    Again, we gave you a lot of money. We spent about $500 
million in taxpayer funds testing the dedicated short-range 
radio communications devices. What's NHTSA currently doing to 
address the potential issues with security credential 
management system? Where are we on that?
    Mr. Beuse. Those funds are not NHTSA funds. Those are the 
JPO funds, Joint Program Office funds.
    Mr. Mica. Is that under you or----
    Mr. Beuse. That is not under me, sir.
    Mr. Mica. Who is it under?
    Mr. Beuse. It's under the Joint Program Office, which is 
now part of the Office of the Secretary. I can't tell you----
    Mr. Mica. It's under DOT.
    Mr. Beuse. It is under DOT, sir.
    Mr. Mica. Yeah, okay. So I can say under you, okay, under 
DOT. But they have had half a million. What's the result there?
    Mr. Beuse. Sure. So what we're doing, what the Department 
is doing----
    Mr. Mica. Half a billion.
    Mr. Beuse. --is putting sort of hardware behind that 
system. I alluded to it in my testimony. What's been done to 
date has been a lot of hard work with a lot of smart people 
coming up with the design, but now we feel we need to actually 
build this and operate it to see what are the vulnerabilities 
and do some large-scale testing.
    Mr. Mica. Do you have any idea exactly where? I'm told that 
some of what you have done were really actually slid behind 
sort of the advances in technology. And how much more money, 
how much more time will it take? Do you know?
    Mr. Beuse. I think that's exactly why the Secretary of 
Transportation has committed to putting this technology out for 
public comment as part of a NHTSA proposal in 2016.
    Mr. Mica. So that's not till next year?
    Mr. Beuse. I guess in 2 months or so we'll start 2016, but 
that is the goal. He asked us to accelerate that rulemaking, 
which we have.
    Mr. Mica. Well, we have spent a lot of money and we don't 
see a lot of progress. And when would you have your final 
report, the report that I requested here? It's in draft. You're 
going to give us the draft. When will you have that finalized?
    Mr. Beuse. I can get back to you on the record on that, 
sir.
    Mr. Mica. Within the next 10 days.
    Mr. Beuse. Absolutely.
    Mr. Mica. I want a date, a firm date.
    Mr. Beuse. Absolutely.
    Mr. Mica. And then I want it made part of the record, okay.
    Mr. Beuse. Absolutely.
    Mr. Mica. I'm sorry. Don't mean to be, you know, demanding, 
but----
    Mr. Beuse. Sir, I understand your frustration.
    Mr. Mica. Okay. Again, we try to act responsibly and we 
expect the agencies to do the same thing.
    So right now, just my final question, cars can be hacked 
with electronic systems. We don't have in place either a 
standard or ability to stop that. I guess that's a simple way 
to put it. Is that correct, Mr. Lightsey?
    Mr. Lightsey. Mr. Chairman, thank you. GM has invested a 
lot of time and effort into making it as difficult as possible 
to hack into cars. As I indicated, we have embraced the NIST 
framework.
    Mr. Mica. No, that's an individual effort. We applaud you 
for that. But my question is, we really don't have a standard, 
we don't have the ability to prevent that developed, do we?
    Mr. Lightsey. We have the ability to implement things as a 
business, which is what we are doing.
    Mr. Mica. So your cars can't--General Motors' cars can't be 
hacked?
    Mr. Lightsey. I can't say whether they can be hacked or 
not. I can say that we are making them as difficult as we 
possibly can.
    Mr. Mica. Okay, but that's your individual, and I'm asking 
about do we have a standard. We don't that I know.
    Mr. Lobenstein.
    Mr. Lobenstein. Yes, Mr. Chairman. I think we are trying to 
be proactive. We----
    Mr. Mica. But again, the question--and I applaud each of 
you, and Telsa--Tesla--that's wrong--but Tesla will tell us 
they are five star and all of that. But my question was, is 
there a standard developed and is there a protection in place? 
The answer is for you.
    Mr. Lobenstein. We have actually begun working as an 
industry----
    Mr. Mica. Okay.
    Mr. Lobenstein. --to establish cybersecurity.
    Mr. Mica. But we don't have that in place.
    Mr. O'Connell.
    Mr. O'Connell. I'm not aware of an industry standard. The 
one thing I would add, sir, is that there is a difference 
between sort of hard access hacking and wireless hacking, and 
that's something--we've seen the former, which is people with 
access to a vehicle then being able to modify certain access.
    Mr. Mica. So hard access can----
    Mr. O'Connell. Hard access hacking has happened on isolated 
cases. I am personally unaware of any wireless hacking that has 
gone----
    Mr. Mica. But there are no protections or standards.
    Mr. Lobenstein. As I said, no standards that I'm aware of.
    Mr. Mica. Or if it can be done.
    And then, again, part of the responsibility is Congress has 
set no penalties. We haven't held the agency's feet to the 
fire.
    I will give you the last word, Ms. Barnes. Anything you 
want to comment?
    Ms. Barnes. Sure. I will just point out, and it is in our 
written testimony, key examples of computer scientists and 
other researchers finding ways to wirelessly hack into 
vehicles.
    Mr. Mica. Okay.
    Mr. Garfield.
    Mr. Garfield. There is a difference between there being 
standards and there being laws. There are certainly standards 
being developed around cybersecurity, and there are certainly 
laws in place that would punish someone, whether it's the 
Computer Fraud and Abuse Act or the Digital Millennium Computer 
Act, from folks hacking into cars or anything else. The 
question is, are there laws mandating particular standards, and 
I would argue that mandating a particular standard would be the 
absolute wrong approach.
    Mr. Mica. Well, we don't have that, but we still don't have 
industry-wide standards or protections on hacking, on privacy, 
a whole host of things we have heard today.
    Let me, I have taken more than my time.
    Mr. Beuse. Mr. Chairman, just on that last question. The 
industry group, the SAE International, just recently, like 
within the last week, has developed a set of voluntary industry 
best practices. We just got it, so we are just looking at it, 
but I just wanted to make sure you knew that that was out 
there.
    Mr. Mica. Usually things happen just before the hearing.
    Let's go to Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    So I want to speak, gentlemen and Ms. Barnes, to ISACs, the 
sector-specific Information Sharing Analysis Centers, which are 
nonprofit, member-driven organizations formed by critical 
infrastructure owners and operators who share information 
between government and industry about cyber threats and lessons 
learned; not necessarily in the automobile industry, but in 
other areas.
    Mr. Beuse, can you talk about what sort of mechanisms or 
organizations have been instituted by NHTSA, and also by the 
industry, to work towards secure Internet-connected vehicles?
    Mr. Beuse. Sure. There has actually been quite a bit of 
work done. NHTSA was really at the forefront in trying to 
encourage the development of the ISAC, and we are very pleased 
that it is actually up and running now. There are some 
additional steps that we think probably are necessary. One is 
clarifying what the role that it will have in its interactions 
with the agency, and also how that group will be expanded to 
other sectors, including suppliers.
    Ms. Duckworth. I would like to speak to the suppliers 
portion of it. This is something that has come up in my work on 
the Armed Services Committee on military equipment. 
Cybersecurity is certainly something of great, great potential 
harm to our military. And one of the things that I found out, 
that for a military weapons platform, something as critical as 
the new F-35 fighter jet, there is not complete security of the 
supplier network.
    Could any of the three gentlemen from the three automobile 
manufacturers here talk a little bit about what you have done 
to secure or safeguard or ensure that your supplier network is 
one that you can trust? I have in my congressional district 
Huawei, which is a chip manufacturer, which has been identified 
by the U.S. Government and different folks as a problematic 
company that actually engages significantly in espionage, both 
in corporate espionage as well as in governmental intelligent 
espionage as well.
    What are you doing to make sure that the chips that you 
are--I'm assuming you don't make your own chips. But what are 
you doing to make sure that your supply network is also secure?
    Mr. Lightsey. Thank you, Ranking Member.
    GM, as I was indicating to the chairman, we have invested a 
substantial amount of resources and time into the whole 
cybersecurity issue. In fact, we created a global organization 
whose sole mission is end-to-end cybersecurity of our products 
and services. And that organization is headed by our chief 
product cybersecurity officer who reports to the senior 
management of the company, including the CEO, and to the board 
at regular intervals about the cybersecurity status of our 
products and services.
    That includes our supply chain, and we have requirements 
that our suppliers must meet. We audit them on those 
requirements, and we test their products, and we have those 
products as part of--we certainly embrace security by design. 
So from the very beginning of the design of those products, all 
the way through to production, those products are tested by 
both internal and external experts.
    Ms. Duckworth. For cyber vulnerabilities are you talking 
about----
    Mr. Lightsey. Yes, for cyber vulnerabilities, penetration 
testing, other techniques that are common and standard.
    Ms. Duckworth. Okay. Mr. Lobenstein, and then Mr. 
O'Connell.
    Mr. Lobenstein. Yes, for Toyota, cybersecurity and safety 
is of paramount interest to us, and we also use industry 
standard best security practices, including security by design, 
risk assessments, multilayer defense. Even in our telematics 
group we have our cybersecurity team embedded in our activities 
from the day that we put pen to paper on a strategy, 4 years 
before a product is launched, through development, through 
engineering, and even through the operations.
    One thing I also wanted to mention is that in the Auto-ISAC 
we have also invited our automotive suppliers to participate in 
that. So we are bringing them in that ISAC so we can share 
information with them as well.
    Ms. Duckworth. Mr. O'Connell.
    Mr. O'Connell. Yeah, a couple of thoughts. Many of the 
things we do are consistent with what my colleagues have just 
mentioned with respect to looking at cybersecurity and general 
robustness of the system. A couple of things that differentiate 
Tesla, one is our concern, based on being an industry leader in 
the electric vehicle space, we have a unique concern about the 
integrity of our operations, because as a new industry entrant 
we are uniquely subject to these risks.
    That said, we take a systems-level approach especially in 
our software development, but also on our vehicle side. So we 
have a much higher degree of vertical integration. Many of our 
software systems are designed from the ground up as a whole 
system rather than relying on outside providers of software.
    With respect to our chip technologies, we are largely, to 
my knowledge, sourcing from domestic sources. But we are 
wholly, you know, focused on the vulnerabilities as any Silicon 
Valley company would be.
    Ms. Duckworth. I'm out of time, Mr. Chairman.
    Mr. Hurd. [Presiding.] Thank you, Ms. Duckworth, and I 
always appreciate your insightfulness in your questioning.
    I now recognize my colleague from the great State of Texas, 
Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you very much, Mr. Chairman, and I 
appreciate the opportunity to be here.
    Are you pronouncing your name Mr. Beuse? Is that correct?
    Mr. Beuse. Beuse, yes.
    Mr. Farenthold. Okay, Mr. Beuse.
    There is a huge amount of investment that automakers and 
U.S. tech companies like Google, Uber, Intel are making in 
autonomous vehicles overall and autonomous vehicle crash 
prevention technologies that don't rely on DSRC at all. What if 
any steps is NHTSA taking to support this type of innovation 
which is one of the reasons the U.S. leads globally in 
intelligent transportation systems?
    Mr. Beuse. So with respect to the automated vehicle 
technologies we couldn't agree more. We think that there is a 
future for both connected and automated. So we are pushing hard 
on both. If you see recent examples by the Secretary on 
automatic emergency braking, for example, we just included that 
technology into our new car assessment program, which is one of 
the most visible programs at the Department in terms of 
consumer information.
    The other thing we have done is we have encouraged industry 
to slowly make that technology standard, slowly by meaning 
trying to get to a place where they can offer that as a 
standard feature on all vehicle models without a regulation. 
And that was the September announcement that just happened. And 
so you can see we are pushing on those automated technologies. 
Likewise, on connected vehicle technology, we believe that it's 
a mandate that's necessary to get that market to go.
    Mr. Farenthold. So how are we going to tie this in with the 
proposal to mandate DSRC in all light vehicles? Are you going 
to require these companies to put DSRC on top of their own 
technologies and are we forcing a standard on folks that we may 
not be ready for?
    Mr. Beuse. I think that's exactly what the proposal is 
meant to find out, sir. I think if you look at the approach of 
the Department, it is to try to get this technology out of the 
research phase and ready to deploy and ask some of these very 
difficult questions of the technology about if it's ready to 
deploy. We certainly believe it's ready to deploy. We believe 
the two technologies are complementary, they are not in 
competition with each other, and there is a role for both.
    Mr. Farenthold. All right. Well, thank you very much.
    And, Mr. O'Connell, I want to visit a little bit about what 
you guys are doing at Tesla. You all take a different approach 
to determining security issues and other concerns where you 
basically have a bug bounty on there and employ white hat 
hackers. Can you talk a little bit about what you do and why 
that's a good thing and how it's working?
    Mr. O'Connell. Sure. Our approach is really consistent with 
the sort of software development, if you will, Silicon Valley 
approach to hardening software over the course of time, and it 
relies on a system of incentives whereby we encourage folks to 
test our system, both in professional and informal 
environments, and we reward them when they identify 
vulnerabilities.
    This is consistent with the sort of incentives and 
disincentive systems that I think generally works in the human 
environment. But we find it works. It's worked very well in 
most software environments, and it's working very well for us 
as well. And it allows us to rapidly identify problems and 
rectify them and then through connectivity, as I mentioned 
before, implement the solutions.
    Mr. Farenthold. All right.
    And, Mr. Beuse, recently the U.S. on an international basis 
supported a global standard for DSRC in the W band at 77 
gigahertz, while we are looking locally at a whole different 
frequency range, around 50 gigahertz. Is this an example of one 
hand not talking to the other? Wouldn't we be better off with 
one international global standard?
    Mr. Beuse. I'm not exactly familiar with that particular 
issue. I do know that on the technology radio side of things we 
have worked very hard to make sure that we have same standards 
on both sides of the Atlantic, so to speak, so that we can have 
one common set of hardware.
    Mr. Farenthold. Mr. Lobenstein, would you like to address 
that?
    Mr. Lobenstein. So we fully support the idea of spectrum 
sharing. There has been some deployment actually in the 
Japanese market near the 5.8 gigahertz band. We also think it's 
important to protect this bandwidth within the United States 
because DSRC provides lifesaving services, and we need to make 
sure that that----
    Mr. Farenthold. Is there a technical reason it is not going 
to work at 77 gigahertz like the rest of the world is talking 
about?
    Mr. Lobenstein. I'm sorry, Mr. Farenthold, but I'm not a 
technologist, so I'll have to pass on that.
    Mr. Garfield. Well, actually, if I might?
    Mr. Farenthold. Sure.
    Mr. Garfield. It speaks to the point we were making earlier 
about all of the different--the disparate efforts in this area 
and why an agency that is focused on standards and standards 
development globally like NIST has to be a part of this 
conversation.
    Mr. Farenthold. Okay. I see I'm out of time. I look forward 
to a second round of questions.
    Mr. Hurd. Thank you, Congressman Farenthold.
    Now I'd like to recognize the ranking member of the IT 
Subcommittee, and my friend, from the great State of Illinois, 
Robin Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    The promise of Internet-connected vehicles is that they 
bring greater levels of comfort, convenience, and safety, but 
that same Internet connectivity means that these computers on 
wheels face the same cyber threats and vulnerabilities as other 
computers.
    Mr. Garfield, given the volume of successful compromises of 
corporate and government networks, in your estimation, how 
likely is it that we will see hackers instead of just 
researchers succeed in hacking connected cars and especially in 
light of Ms. Barnes' testimony?
    Mr. Garfield. It's hard to predict the future, but I think 
the likelihood is real and that it is likely. I think the 
information that Mr. O'Connell shared about the approach in the 
software industry on taking an agile approach where we adjust 
continually, we are testing continually, and integrating 
security and privacy by design with redundancy, resiliency, and 
robustness, so we are not compromised completely, is the proper 
approach.
    Ms. Kelly. Is there anything that keeps you up at night, 
any scenario that concerns you the most?
    Mr. Garfield. Generally, I sleep quite well. But actually, 
I think part of my worry is that all of the great things we 
have been talking about will be a dream deferred because our 
policy apparatus won't be as agile as our software development 
to keep up with these shifts. And so I get the instinct to act, 
and we should act. What we are suggesting is that we act in a 
strategic coordinated fashion that ensures our shared interests 
are achieved.
    Ms. Kelly. Thank you.
    And Mr. O'Connell, Mr. Lobenstein, and Mr. Lightsey, when 
you think of new features that you are adding to your cars, is 
there anything, not that you would do it on purpose, but that 
you're adding that you think could be negatively compromised as 
you're getting more connected, I guess?
    Mr. Lightsey. Yes. So as we have said, we certainly embrace 
all the tenets that Mr. Garfield has spoken about, and we 
incorporate security by design, defense in-depth strategies 
throughout our review. And so from the very beginning that any 
service or hardware begins to go through the design cycle for 
our automobiles, that cybersecurity posture of that particular 
element is being evaluated, the risk is being assessed, and 
appropriate measures are being taken to mitigate that risk. And 
that goes all the way through production and into the lifecycle 
of the vehicle itself.
    Ms. Kelly. Thank you.
    Mr. Lobenstein. For Toyota the safety and trust of our 
customers is paramount. And as I mentioned before, on the 
telematic side we employ the same cybersecurity best practices 
that have been mentioned here today. We include our 
cybersecurity experts from the very beginning and they provide 
feedback to us that we implement, and I think as we go forward 
we will continue to expand on that. And we also look forward to 
working as an industry to develop cybersecurity best practices 
that we can all employ.
    Mr. O'Connell. You didn't ask me, but I sleep well at night 
too, and for two reasons. One, I know that we are employing 
within Tesla some of the industry's best, as far as developing 
new applications and considering issues, important issues such 
as privacy and cybersecurity.
    The other piece that gives me peace at night is that we are 
working within a context, as Representative Farenthold referred 
to, of open innovation whereby it's not wholly--the integrity 
of our systems is not wholly reliant on the capabilities of 
Tesla, but rather looks to resources outside of Tesla to 
improve the systems that we are developing and to rapidly 
implement those systems.
    Ms. Kelly. Thank you.
    Lastly, at the beginning of your testimony, Mr. Beuse, you 
talked about some of the statistics of people dying on the 
highway.
    Mr. Garfield, your testimony references the tremendous 
economic and societal benefits that can be derived from 
autonomous and connected vehicles. In your opinion, what should 
Congress be doing and the Federal Government more broadly to 
ensure the potential of this technology is realized? What more 
can we do?
    Mr. Garfield. Yeah, thanks for asking. There is certainly 
important work for Congress. There are so many different 
agencies that are working on the Internet of Things, and 
connected cars are a part of that. Congress can play a great 
role in bringing clarity on a path forward in filling gaps 
where they exist. So, for example, Representative Lieu spoke 
about the SPY Act that's going through the House and trying to 
bring order to all of the work that's going on. We think that 
would be quite valuable.
    Ms. Kelly. Okay, thank you. And I yield back.
    Mr. Hurd. Now, I'd like to recognize the gentleman from 
North Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    About 5 or 6 years in the early 1990s I worked in the 
automobile industry on the retail side, and I can look back on 
those 20 years and see how much paperwork on the dealer side 
was required then to how much is required now. So the last 
thing that we want is more Federal regulations on these men and 
women who are working hard to provide jobs out in the industry.
    So I do have a couple of questions, though, to make sure 
that we are headed in the right direction for Mr. Beuse. What 
role, if any, in the Internet of Cars can only be filled by the 
Federal Government? I'd like to hear your thoughts on that.
    Mr. Beuse. So one of the things we're doing is really 
trying to ensure kind of proactive steps from the get-go. It's 
been mentioned a couple times about security by design. We 
think that's absolutely paramount. And one of the things we 
have been doing all along is we saw this coming from very far 
away, that in order to see the vision of the future with 
automated and connected vehicles we really had to start 
focusing on that. And so we have been pushing and prodding as 
best we can to get that happening.
    Mr. Walker. Sure. In your opinion, do we really need an 
auto industry-specific regulator and auto industry-specific 
best practices an standards here, or is the National Institute 
of Standards and Technology voluntarily cybersecurity framework 
sufficient enough or the right approach? Can you address that?
    Mr. Beuse. Sure. It might be all of that, sir. It really 
might be all of that. Right now what we have concentrated on is 
a kind of a two-prong approach with that. First is actually 
working directly with NIST to work with the auto industry on a 
set of best practices. But as a regulatory agency, we have to 
keep in mind that that is our job, and if there's a need to set 
a floor, we will do so.
    Mr. Walker. Fair enough. Let me switch gears here but stay 
with you, Mr. Beuse, for just another minute or 2.
    Does the Federal Trade Commission currently have 
jurisdiction under Section 5 to police the privacy policies of 
automakers to the extent they collect customer personal 
information from these connected car devices?
    Mr. Beuse. So that's probably a question more directly 
directed at the FTC, but what I can tell you is that we have 
been working very closely with the FTC on privacy issues.
    Mr. Walker. Okay. Does the Department of Transportation, or 
the NHTSA, have particular expertise that would warrant having 
them, rather than the FTC, to answer your response, oversee the 
privacy policies related to the connected car devices?
    Mr. Beuse. So we have do have privacy experts. That is one 
of the things we will be addressing in our V2V rulemaking. And 
so we have expertise at the agency, in our Department.
    Mr. Walker. Is there a certain timeframe that you're--is 
this a date or conference or meeting that you will be 
addressing this? Is there a specific meeting for that?
    Mr. Beuse. Sure. Sure. What we will be doing is in the 
context of our notice of proposed rulemaking on V2V 
communications we will have much discussion on the privacy 
aspects of V2V.
    Mr. Walker. Last question for you. And I've got--hopefully 
have time for one more for someone else on the panel.
    Most of the technologies that are in development are 
independent of the DSRC and do not rely on the DSRC. What is 
the NHTSA doing to enable further technology adoption and take 
care not to hamper the innovation that we're seeing?
    Mr. Beuse. We're using all the tools at our disposal, 
including consumer information, regulations where appropriate. 
It really is an era that we can--when we see lifesaving 
technology, we really want to push to get it deployed as soon 
as possible.
    Mr. Walker. All right. Let me slide over to Ms. Barnes for 
just a minute if I could please.
    In your testimony you noted the sensitivity of consumer 
information collected by the connected vehicles. You did a 
great job sharing that. But just to review, can you describe 
what types of personal identification information might be 
collected and what entities would be collecting it other than 
the vehicle manufacturers?
    Ms. Barnes. Thank you for your question. Some examples of 
personally identifiable information that can be collected is 
location information, which can reveal an individual's pattern, 
her habits. There's also the collection of biometric 
information, also the collection of credit card information 
with certain telematics placed inside of the car. Individuals 
can within their car speak into their system for a text 
message, so that's audio and that's also text messages.
    And looking at the privacy policies of certain auto 
manufacturers, it's almost an endless amount of outside 
entities. Oftentimes car manufacturers do not specify the 
various third-party entities to which they give information to. 
We know in certain contexts it's marketers. We know that there 
is an increased market for insurance companies to gain 
additional access. And without sufficient legal requirements, 
law enforcement could also gain access to this sensitive 
information.
    Mr. Walker. All right, thank you. That was very well 
articulated.
    I have got a few seconds left, but just maybe get a quick 
answer from our manufacture guys. Regarding connected vehicles, 
in what countries are we seeing the most innovation on this 
right now? Are you able to address that and just maybe just go 
down the line in 8, 9 seconds? And with that, I'll yield back 
then.
    Mr. Lightsey. I think this is certainly a very globally 
competitive part of our industry. I think right now the United 
States, it leads in terms of deployment of advanced 
technologies. But I think this is rapidly changing, and I think 
the proper policies need to be in place to assure that this 
innovation continues in the United States.
    Mr. Lobenstein. Thank you.
    I agree. I think we are moving very quickly in the United 
States to adopt these types of technologies, although in 
countries like Japan technologies, for instance DSRC, V2V, and 
V2I, have already been put in place.
    Mr. O'Connell. I won't refer to our unique regional hubris, 
but I think that the most advanced efforts are taking place in 
the U.S. right now and I would like to see us continue to be on 
the leading edge of this.
    Mr. Walker. Thank you. I yield back.
    Mr. Hurd. Mr. DeSaulnier, you are recognized for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to thank 
the chairmen and the ranking members for this hearing.
    Mr. O'Connell, you can go on and talk about the hubris of 
the Bay Area as long as you want to. I'm representing that area 
of the country.
    First of all, Mr. Chairman, I request that a statement from 
the Center of Democracy and Technology be entered into the 
record.
    Mr. Hurd. Without objection.
    Mr. DeSaulnier. And then maybe to Toyota and General 
Motors. The whole issue of independent researchers, Mr. 
O'Connell has talked to Tesla's advocacy for such comments, a 
colleague talked about other technology companies doing that. 
Could you tell me if Toyota and General Motors has the same 
feeling that they will allow for independent researchers to 
help them to make sure that their software is working properly? 
And I say this somewhat in the context of what's happened in 
the industry vis--vis Volkswagen. So maybe you could respond to 
whether you agree with Mr. O'Connell and Tesla's approach or 
whether you have a different one.
    Mr. Lightsey. Yes. So we generally agree with this 
approach. We have specific relationships with certain groups of 
security researchers and academics. As I said, they perform 
valuable services for us in terms of testing the vehicle 
software and the systems on the vehicle to help us design, make 
them better in design, so that hacking them is more difficult.
    We also publicly disclose that we're looking very hard at a 
security vulnerability program. Whether or not it's exactly 
like the one that Tesla described will be determined. But we 
should be rolling that out very quickly. And we want to know, 
if our software has vulnerabilities, we want to know that both 
from folks within the company and outside the company.
    Mr. DeSaulnier. Mr. Lobenstein.
    Mr. Lobenstein. We at Toyota also welcome information from 
so-called white hat hackers. We have regular communications 
with them. We have relationships with them. We also attend some 
of the same conferences that they do. And we also do employ 
third-party cybersecurity testing on some of our systems to 
ensure that we have got all the most up-to-date information and 
we are patching any vulnerabilities that we might find.
    Mr. DeSaulnier. Okay. Switching subjects to privacy. So the 
privacy principles are exciting to look at. But given Ms. 
Barnes' concerns, and I will say my concerns, in the California 
legislature we had very spirited debates about providing for an 
opt-out for any third-party data, and the industry lobbied 
heavily against it. It didn't get out of its first Policy 
Committee.
    So in that context, I think with the language that you have 
in the privacy agreements that you have come up with and the 
value you place on consumer confidence and what you are using 
and the concerns that have been expressed here today as well, 
can you provide a comprehensive list of all the data currently 
tracked and stored in your vehicles, Mr. Lightsey? Can you 
provide that information and can you provide it to the 
committee, borrowing on the chairman's earlier comments of 
within a couple weeks?
    Mr. Lightsey. Sure. Definitely.
    Mr. Lightsey. Our customer relationship is certainly the 
most valuable thing that we have in our company, and we respect 
the privacy of our customers, and we want to protect their 
information. I will say that before we disclose any information 
to any third party we get a specific affirmative consent from 
our customer to do so.
    Mr. DeSaulnier. Mr. Lobenstein.
    Mr. Lobenstein. We also follow a similar process. We want 
to be very transparent with our consumers on the data that 
we're collecting and how we are using it. In four instances 
where location-based services are used, we ask for the 
affirmative consent of our consumers because those services 
sometimes provide lifesaving services like crash notification.
    Mr. DeSaulnier. I appreciate that.
    Mr. O'Connell.
    Mr. O'Connell. Yeah. So several levels of protection 
involved at Tesla. First of all is the opt out. I mean, people 
have the option to not share any of their data with us. When we 
do share, when there is bidirectional flow of data, we 
anonymize that data and we aggregate it such that not only can 
you not identify the user, but you can't even identify the 
vehicle. So that's our philosophy.
    But the intent of, as I'll remind, the intent of all of 
this is to increase principally the safety of our vehicles, and 
then secondarily, but of great concern, the utility of our 
vehicle to our customers and drivers.
    Mr. DeSaulnier. I appreciate that. And hopefully we will 
hit all of them.
    Mr. Garfield, maybe you could just comment on the 
industry's privacy standards in your view that related to other 
tech privacy protections.
    Mr. Garfield. In general, the privacy norms in the United 
States and actually globally are driven by the FIPS standards, 
which also is at the heart of the FTC regulation in this area, 
which over time has become more expansive, not just to deal 
with expectations that are explicitly articulated but those 
that are normative.
    Mr. DeSaulnier. Thank you, Mr. Garfield.
    Mr. Chairman, I yield back.
    Mr. Hurd. Thank you, sir.
    And I'd like to recognize myself for 5 minutes.
    Mr. Beuse, can you take 30 seconds and tell me, just to 
make sure I'm clear, what DSRC is?
    Mr. Beuse. Dedicated short-range radio communications.
    Mr. Hurd. And how is it going to be used?
    Mr. Beuse. To send basic safety messages between devices.
    Mr. Hurd. And this is being developed by the Department of 
Transportation?
    Mr. Beuse. In conjunction with a whole host of alphabet 
soup.
    Mr. Hurd. Agencies, Federal agencies.
    Mr. Beuse. Federal agencies, suppliers, manufacturers, 
companies.
    Mr. Hurd. So here is my concern about that. DOD and VA 
spent over half a billion dollars trying to get two electronic 
health records to work together. And after 4 years, they said: 
Uh, this is really hard, we are going to have to go separate 
areas.
    And now we are talking about being in an industry where you 
have so much private sector investment that are figuring this 
out, why are we even thinking about the Federal Government 
getting involved in doing this when that standard hasn't 
developed out of the private sector? The private sector is 
going to be a little bit better equipped to develop this type 
of technology and the thing is probably going to work a little 
bit better.
    I don't know. Mr. Garfield, do you have some opinions on 
this?
    Mr. Garfield. We do.
    Mr. Hurd. I'd like to hear them.
    Mr. Garfield. Our view is, and I shared it implicitly in my 
testimony, is that there are complementary technologies that 
are being developed, including advanced LTE and 5G, that we 
can't tell which is going to prove most effective. And so we 
think having the ability for all of those, including DSRC to 
advance, but without a thumb on the scale, including the thumb 
on the scale of the Department of Transportation.
    Mr. Hurd. Yeah. And, Mr. Beuse, why do we think that the 
Department of Transportation should be doing this and why this 
is going to be helpful in the concept of interconnected cars? 
And I also appreciate you talking about the safety concerns 
related with interconnected cars.
    Mr. Beuse. So maybe just to clarify, I think there's a 
misconception about what we are doing at the proposal level, 
right? So we are writing a proposal to ensure interoperability, 
security, and everything else that is needed to support 
communications between vehicles. If at some point in the future 
or even in response to the proposal data comes in that shows 
there is an alternative technology that can meet the safety 
potential, then----
    Mr. Hurd. Do we not think that that's already there? I 
think Toyota is doing it. I think Tesla is doing it. I think GM 
has even tinkered with this. I think it's--the cat's out of the 
bag.
    Mr. Beuse. In response to the ANPRM, none of those comments 
came in. There was not one person that responded back saying 
that this technology shouldn't be mandated, it's not the right 
technology.
    But again, I think we are writing that rulemaking with an 
open mind, and it's just a proposal, and so the idea is we'll 
get comments and we'll evaluate where we are. I think the whole 
notion of going this step is really to take it out of the 
research where it's been for so long and really shine a light 
on it so we can----
    Mr. Hurd. Absolutely, because I had dear friends in a 
recent car accident and there was a fatality, and the car that 
came and hit them, first eyewitnesses said that the car never--
there was no braking involved. And the technology, advanced 
emergency braking, that Tesla is developing--I think other 
manufacturers are--I want to see this as quickly as possible.
    And, Mr. O'Connell, my question to you is, you know, is 
there any barriers that are preventing you all from moving even 
faster on deploying this technology?
    Mr. O'Connell. No. I think it's human will and open 
communications both, you know, between the parties here at the 
table and with government bodies, so that, you know, confidence 
is obtained all around. Use the convening power of our separate 
agencies and share information. That's what's going to solve 
this problem.
    Mr. Hurd. Yeah, because if we can protect more citizens 
from crashes, you know, this is going to be a great thing for 
all of us.
    Mr. Lobenstein, my question to you, and this is from you 
having your hat as the new chair of the Auto-ISAC, have you 
been given any information, any intelligence, been briefed on 
anything of known attackers targeting specifically vehicles, 
types of vehicles? Is Russian organized crime creating, you 
know, focused on getting access into vehicles? Have you seen 
that kind of information?
    Mr. Lobenstein. I apologize, Mr. Chairman. I'm not actively 
involved in the Auto-ISAC myself, so I don't have that 
information. I can get that for you.
    Mr. Hurd. Ms. Barnes, are you familiar of anything like 
that where there is briefing on known attackers, Russian 
organized crime, Chinese state sponsors, that are looking at 
getting access to vehicle information?
    Ms. Barnes. At this moment, no. I'm sorry. I'm not aware.
    Mr. Hurd. Because again, one of my concerns is that, you 
know, I did this for a living. We did this on trains. We did 
this on subways, and, you know, looking at how can you take 
advantage of it. We've got to know what the threat is, and this 
is why I think this creation of the Auto-ISAC is important.
    And if you're not getting the kind of information sharing--
because the Federal Government should be sharing as much 
information as it possibly can with the private sector, for the 
private sector to protect themselves, and to protect 
consumers--and if you're not getting that, let me know.
    And my last point is, the Office of Personnel Management 
had difficulty protecting the records of 23 million people. And 
they had the audacity to not even say ``my bad'' when they sent 
out the letters to the people that did receive the letter that 
they were compromised. By the way, I was one of them. And at 
least when some of these issues have been--arise within the 
auto industry, that I got a letter pretty quickly talking about 
how you fix it, how you do it. And there was a responsiveness 
that I wish the Federal Government had.
    And so I think it's--I'm always concerned when we put too 
much faith in Federal agencies to protect our information. And 
it's cooperation. It seems like it is, Mr. Beuse. I appreciate 
that. But this is where we need to work together and we need to 
make sure that innovation and entrepreneurship is allowed to 
grow.
    With that, I'd like to----
    Mr. Garfield. Actually, if I can make a quick plug for data 
breach----
    Mr. Hurd. You got a couple seconds.
    Mr. Garfield. --data breach legislation, which has been 
pending for quite some time, almost a decade, is long overdue, 
and could be helpful here as well.
    Mr. Hurd. I would like to recognize my colleague from 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to the 
panel.
    Maybe, Mr. Garfield, I'll start with you. Can you tell us 
the difference between autonomous and assisted vehicles?
    Mr. Garfield. In common nomenclature the idea is that an 
autonomous vehicle doesn't necessarily rely on vehicle-to-
vehicle or vehicle-to-infrastructure communication, so it is 
truly not connected to another car or to communication from 
infrastructure.
    Mr. Connolly. Or to a driver?
    Mr. Garfield. Or to a driver, correct.
    Mr. Connolly. And assisted would be?
    Mr. Garfield. It's assisted by some network communication, 
either with the infrastructure or with another----
    Mr. Connolly. But also might be driverless in that sense?
    Mr. Garfield. Correct.
    Mr. Connolly. Okay.
    Maybe we can start with you, Mr. Lightsey. You know, I 
represent northern Virginia here in the Nation's Capital. The 
national capital region as measured by A&M's Urban Mobility 
Scorecard now has the Nation's worst congestion as measured by 
these metrics: 82 hours stuck in traffic every year on average; 
35 gallons of gas wasted idling every year; and at least $1,800 
in lost time every year.
    How could these technologies assist a region like this with 
arguably the worst congestion as measured by those metrics?
    Mr. Lightsey. Yes, thank you.
    So first of all, let me backtrack a little bit to Chairman 
Hurd's questions about DSRC and just let me say on behalf of 
the industry and on behalf of GM, private industry has also 
invested a substantial amount of money, equal to or greater 
than the amount of money that the government has invested in 
this technology. And we very much view this as complementary to 
the onboard sensor technologies that are also being used with 
many of these safety systems.
    So DSRC has the advantages, as Mr. Beuse referenced in his 
introduction, it has the advantage today of being the only 
technology we know of that meets all of the latency 
requirements to actually be able to have these vehicles talk to 
each other in time to prevent a collision or crash from 
happening, and works in bad weather with obstructed vision, 
without obstructed vision, and those are the advantages that we 
see to DSRC.
    But I think if you take together all of these collisions, 
all of these technologies, you know, any time that we can 
prevent a crash from happening, we get the attendant benefits 
of all of the congestion that happens when you have a crash.
    Mr. Connolly. I concede that, but that's really not my 
question. I think we have covered safety and I completely 
concede that. And for some people their intuitive reaction when 
you talk about driverless cars, I'm going to put it that way, 
is well, I'm not in control, what if something happens, what if 
it goes awry? And I think, well, 94 percent of current 
fatalities are due to human error. Surely we can do better than 
that and we can reduce, I think, significantly.
    Mr. Garfield. And you are seeing better already with 
advanced driver-assisted systems.
    Mr. Connolly. Yes.
    Mr. Garfield. So it will only get better and better.
    Mr. Connolly. But how can it work in helping to alleviate 
and better manage congestion in areas like ours? I guess that 
was kind of what I was getting at.
    Mr. Lightsey. Right. So if you take the whole system, 
certainly as we bring the infrastructure into play and traffic 
signals become more aware of what cars are flowing in what 
direction, they can time themselves to optimize the traffic 
flow. Autonomous vehicles, as being better controlled than by a 
human operator, will be able to follow each other a little bit 
more closely in a safe manner and, therefore, make more 
efficient use of the roadways that we already have instead of 
us having to continually add new lanes to our highway system. 
Those are the kinds of things that we are talking about.
    Mr. Connolly. Well, I want to give Mr. Lobenstein and Mr. 
O'Connell from the manufacturing point of view an opportunity 
to comment as well. But I have got to observe, and this is the 
Nation's Capital, we are not that good at deploying technology 
currently. I mean, in terms of traffic management, not much. 
And I have been involved in local government for a long time. 
We tried to get it, you know, deployed. I think, Mr. 
Lobenstein, you mentioned Japan. Japan is light years ahead of 
us in the deployment of technology for managing traffic 
control. But why don't you two comment.
    Mr. Lobenstein. They do have V2V and V2I technology 
deployed already for improving traffic flow. And I think if we 
look at the technology, traffic information was provided one 
way to vehicles years ago, and now the vehicles understand and 
can communicate back their flow and we know real-time when 
there is traffic and where there is traffic. And I think 
expanding the communication, whether it is V2V or V2I, allows 
us to then improve routing, which improves safety, it has 
improvements in productivity for individuals as well as 
business, when you think about delivering goods and services, 
and it has the capability to improve emissions as well.
    Mr. Connolly. Mr. O'Connell.
    Mr. O'Connell. On topic but slightly tangentially, there is 
a great YouTube video that shows 20 cars put on a racetrack 
with individual drivers all given a green light to start moving 
at a certain time at a certain speed, and something within like 
two or three laps they are all congested. So human systems are 
not great, as you note.
    Infrastructure is also hard. My comments are most salient 
within the context of Tesla. We are already fielding driver 
assistance technology, what we refer to as autopilot, which 
relieves the driver of certain control responsibilities at 
certain times and within responsible contexts. So presumes that 
the driver is there, presumes that their hands are on the 
wheel, but in certain speed environments, low-speed 
environments, such as congestion, a vehicle can modulate its 
own position within traffic and keep traffic flowing.
    I mean, it's tempting to think that this sort of technology 
could be implemented rapidly across a fleet. It's too bad the 
connectivity doesn't exist across the fleet so that we can't 
rapidly uptake systems. But I think you are going to see it 
implemented more and more quickly over time.
    Mr. Connolly. And if I could just observe at the end here, 
Mr. Chairman, I think what's hopeful is how rapidly we already 
are adjusting to technologies that assist us in this effort. 
So, you know, on our own, we are getting on this and finding 
out what's a better route because of congestion. I can even 
look at reports coming in for what's causing the congestion and 
then I can make a judgment as to whether I want to go or not. 
GPS has revolutionized. I have to explain to my young staff 
what a map was. We've become hooked on this already, and it is 
an efficiency. So I'm confident that actually as we really 
advance technology, I think we are going to adjust.
    Thank you so much for being here.
    And thank you Mr. Chairman.
    Mr. Mica. [Presiding.] Thank you, Mr. Connolly.
    I recognize the chairman of the full committee, the 
gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you.
    And thank you all for being here.
    This is one of the most exciting parts of our economy. This 
is somewhere we can lead the world. It's something that's going 
to create real jobs and have a real impact, I think, on 
people's lives as long as the Federal Government doesn't come 
in and screw it up--which we have prone to do in the Federal 
Government.
    One of the raging discussions and topics that we are going 
to have in this Nation, particularly in light of the horrific 
terrorist acts in Europe and what we have experienced here in 
our own homeland, is a further discussion about encryption. 
Because I think one of the big questions before our Nation is 
how much privacy, how much security are we going to give--how 
much privacy are we going to give up in the name of security?
    And it's a difficult question when you see friends and 
loved ones and people on television being killed. It's a very 
difficult thing. But on the other hand, I also want my wife, my 
kids, myself, my friends, my neighbors to be as safe and 
protected from would-be people who want to cause them harm and 
tap into information.
    So maybe if I could start with Mr. Garfield here. If you 
could address the whole encryption issue, how does it really 
work? Because you really can't create a key just for the good 
guys, just for law enforcement, right? It's either encrypted 
and secure or it's not. Give me your perspective on that, 
particularly in light of what this country is dealing with 
right now.
    Mr. Garfield. Thanks for the question, Mr. Chairman. I 
would start by saying that the people that I work with are 
patriots and so are as sickened by what they saw in Paris as 
everyone else in this room.
    The context in which we are having this conversation 
actually speaks to the issue, because when we're talking about 
security and safety encryption is an important tool for 
enabling that. And so the conversation is not either-or, it's 
how do we advance security with encryption as a tool, while 
also making sure that national security is protected?
    And I think there are ways to do that. I think a folly is 
to think that creating backdoors or making keys available to 
just some people is that solution, because ultimately, if you 
create vulnerabilities, they'll be widely exploited.
    Mr. Chaffetz. Yeah, but can't you just give it to the guy 
at the genius bar and your wife and just call it a day? Explain 
to the person who is not as familiar with this how this works 
or doesn't work.
    Mr. Garfield. Well, the challenge with just giving it to 
the person at the genius bar is the same challenge that we're 
talking about with 90 percent of traffic accidents are caused 
by human error. And so you're entrusting one person who may be 
vulnerable to being compromised with the security for everyone. 
And so that is the problem with empowering the guy or the gal 
at the genius bar, is you're creating a vulnerability that 
could then be widely exploited.
    Mr. Chaffetz. Anybody else want to address this? Anyone 
else on the panel here?
    Mr. O'Connell. Probably not.
    Mr. Chaffetz. Do you want to have it be encrypted?
    Mr. O'Connell. I'll, at some risk to myself, maybe I'll do 
that. You know, I think it's an issue of philosophy, right? I 
mean, as Mr. Garfield said, none of us--implied--none of us has 
a unique repository of knowledge or capability.
    I think open systems are ultimately the best systems to 
innovate and to protect. It's a dynamic process. But it's one 
where, I guess, you vest hope either in the inherent goodness 
of man or the inherent badness of man, and I prefer to vote for 
the former. I think that it's the minority that are malignant, 
and that in a truly open system, where innovation is encouraged 
and rewarded, where there's sufficient penalties for malignant 
behavior, you're going to see a net positive benefit over the 
course of time.
    Mr. Chaffetz. Well, thank you.
    And I think as members on this panel and in the Nation 
grapple with this, I think that the 99 percent of our 
population that does deal with things in a safe and secure way, 
they are good, honest, decent people. I think the bigger 
obligation is to protect them as best we can. And certainly 
there can be carveouts for law enforcement needs. If you have a 
probable cause, articulable suspicion, you have a terrorist 
type of activity going on, of course there are things, whether 
it be geolocation or other types of things, that they should be 
able to tap into.
    But if you're a suspicionless American, if you're somebody 
who is leading a good, decent, honest life, I think you have an 
expectation of privacy in this Nation. And that will certainly 
come into play not only with cars, but the Internet of Things. 
And everything that's going to be connected, I think this is 
going to be one of our big questions we're all going to have to 
grapple with.
    Mr. Garfield. If I can add one more thing.
    Mr. Chaffetz. Sure.
    Mr. Garfield. I think how we approach these issues have to 
be grounded in something, and I think what they need to be 
grounded in is our values. And part of our values here in the 
United States is that we act consistent with laws, right? There 
are certainly legal frameworks for gaining access to that 
information, and we will work with law enforcement to ensure 
that our national security is protected while at the same time 
there's a fundamental belief that people's rights will be 
protected as well. And we figured out how to strike that 
balance and we'll continue to do so, and that's partly why 
we're viewed in the way that we are around the world.
    Ms. Barnes. And if I may just briefly add onto that if I 
could have a moment. Another way in which to ensure both the 
privacy and security is we're hearing a lot about privacy in 
design, which is building privacy into the cars. But more 
privacy protective would actually be privacy-enhancing 
techniques which would minimize or eliminate the need to 
collect personally identifiable information, so that when there 
is a report of a malicious hack, those who need information 
regarding the hacker only getting the absolute necessary 
information about the hack, removing the personally 
identifiable information. It's not important where the driver 
was going or what she was speaking out inside of the car, but 
instead that a system has been compromised.
    Mr. Chaffetz. Well, thank you.
    And as I yield back, I do hope members are able to look at 
the geolocation legislation, the GPS Act that we have here, 
that you would need a warrant, or articulable suspicion 
certainly, but a warrant to actually track somebody's 
geolocation, because I do think that is the content of their 
life.
    So I appreciate the time. I yield back.
    Mr. Mica. Thank you, Mr. Chairman.
    Other members have questions?
    Mr. Farenthold.
    Mr. Farenthold. Thank you very much.
    I'd like to take up a little bit on where Chairman Chaffetz 
left off.
    Ms. Barnes, earlier the automakers testified that they are 
very careful with the information they collect and they don't 
share it. Reading your written testimony, I'm not sure that you 
would agree with that.
    And, you know, there's a lot of information that's tracked. 
I haven't turned off geolocation on my phone. So this is my 
Veterans Day map. On a map it shows everywhere I was. I can 
slide over. It tells me I got into the Houston airport and were 
there for 32 minutes at 4 in the morning. I had breakfast in 
Refugio. I went home and took a shower. I went to Robstown, 
Texas. I went to the USS Lexington. I went to Brewster Street 
to welcome some bicycle riders. I then went to Applebee's to 
greet some veterans. I went to the Veterans High School.
    It knows everywhere I was, how long I was down there, and 
has deduced where I live and where I work without me having 
told it a thing. This is turned on by default in almost every 
person's phone. I would imagine that cars collect the same 
information. And unless I'm aggressive about turning it off or 
telling them I don't want it shared with marketing partners, 
I'm going to have something pop up, say, ``You're near a 
Whataburger. Why don't you stop for a burger and fries?''
    So, I mean, there's a lot of information that's out there. 
Do you want to comment on that and maybe we need a better opt 
out on this?
    Ms. Barnes. So I always advocate for stopping at 
Whataburger.
    But opt out routinely fails consumers. This idea that 
there's such an information asymmetry that the auto 
manufacturers, as well as their third-party services who are 
contracting with them, can gobble up all of the information and 
the consumer is simply unaware.
    And when we are looking at the privacy pledge, it also--the 
consumer doesn't have any type of choice. But choice is simply 
not enough for the consumer. That's why we need some type of 
standard where a consumer will have guaranteed privacy 
protections.
    The onus should not be on the consumer to turn off her 
location information at every single subset. And when you look 
in the Car SPY Act, there's a provision that would allow an 
individual to turn off data collection should she choose, but 
still retain the functionality.
    Mr. Farenthold. So how easy is it? Okay, we can talk about 
hackers, but let's talk about the government. How easy, right 
now under current law, is it for the government to contact 
Google or contact Tesla, Toyota, GM, and say, ``I want the 
information for XYZ person?'' And do they need a warrant, or is 
it just, I mean, is it a letter? What do they need?
    Ms. Barnes. So in certain contexts it would depend exactly 
about what type of personal data it is. Some of the information 
may be protected under ECPA and other statutory provisions. But 
in the absence of full-on protection for all of the types of 
information that is collected, not only by auto manufacturers, 
but as well as their third-party services, that's why there 
needs to be----
    Mr. Farenthold. They could potentially be subpoenaed by 
private parties as well.
    Ms. Barnes. Easily, yes, sir. Insurance companies, 
marketers, those are some of the provisions to prevent 
marketers to get it as well.
    Mr. Farenthold. So do any of the auto manufacturers have an 
idea how many of these they get a year, requests for 
information from the government, be it a subpoena or a Federal 
agency?
    Mr. Lobenstein, you look like you have an answer.
    Mr. Lobenstein. So I'm not aware of the number of requests 
we get, but we have had a longstanding policy that any time we 
do get requests for that type of information we require either 
a court order or a warrant before that information's released.
    Mr. Farenthold. Mr. Lightsey?
    Mr. Lightsey. We have that same policy. We will not give 
away any of our customers' private information unless there's a 
due process of law.
    Mr. Farenthold. All right. Thank you very much.
    And let me ask, I've got another minute or so here, we talk 
about encryption and all the technology that's in the cars, in 
the computers, but we look at--we also have created a system 
where we're now making it difficult for us to repair our own 
cars, to modify our own cars. We've basically killed the 
industry of being able to go out and buy another radio for our 
car because it's all integrated in the GPS system and the auto 
control systems.
    There was recently a case with a John Deere tractor where 
they wouldn't let him fix it, saying the copyright on the 
security and the anticircumvision provisions of the Digital 
Millennium Copyright Act made it illegal for them to fix it 
without going to a John Deere dealer.
    I'm afraid we're going to see this in the car and we see 
the death of the corner garage or we see the death of your 
ability to do any sort of modifications to your car, you know, 
whether it's with bigger tires to jack up your pickup truck or 
do things to enhance performance.
    Mr. Garfield. Actually, the example you gave is a great 
example of regulatory processes working. And so every 3 years 
the copyright office has to evaluate the DMCA to ensure that 
good faith research is able to be advanced. And recently the 
copyright office said that as a part of doing good faith 
research you can do so on a car, right, and get beyond the 
encryption systems. And so it's a great example of an agile 
system working effectively.
    Mr. Farenthold. My concern, of course, is you never really 
own your vehicle because there's so much software involved you 
actually may just be licensing the software to, you know, 
operate something that would become a brick if you tried to 
modify it or transfer it or do something else. But that's 
something----
    Mr. Garfield. Not to be overly contentious, but we can't 
have it all ways, right? So we can't say we want connected cars 
moving down the highway and be secure and safe while at the 
same time saying we want everyone to be able to get into that 
and be able to stop it while it's moving.
    Mr. Farenthold. I think Mr. O'Connell is saying we want 
open source software where we can actually see what's being in 
and have control over your own vehicle. I mean, where's the 
line there?
    Mr. O'Connell. To be clear, I didn't necessarily advocate 
for open source software, but I do advocate for an open system 
of improving software. So that's an important differentiator.
    And I would add, though, that, to the point of your last 
comment, there are models out there which posit that people 
don't even want to own their car anymore. So this may be--the 
specific problem you reference may no longer be a problem, 
which opens up the possibility that there are others, but you 
for reference.
    Mr. Farenthold. All right. Well, I appreciate you all's 
comment on that, and yield back.
    Mr. Mica. Well, thank you.
    Any other questions at this time?
    Just I guess in closing, well, I'm sitting here thinking my 
wife is a pretty smart lady, and she does all of the computer 
work at the house and paying bills and everything. And on a 
Sunday afternoon she's on the computer and she gets a call from 
Microsoft service center, and they ask for some information and 
she reluctantly kind of gave it to them. The next thing I know 
is her computer is locked, and it's an extortion attempt.
    And I got on the phone. I found out they were Pakistanis. 
I'm a Member of Congress, so I contacted--we have a whole 
communications network. We have the Capitol Police. We have 
access to the FBI and folks you don't even want to know. And 
they basically told me: You're screwed. And it was extortion. I 
mean, I could see extortion to can't start your car, someone 
has hacked it. So, I mean, this just happened with our little 
home computer.
    It was interesting, though, we bought some new software and 
it was at a location not our principal residence, so we didn't 
have a lot on there. But after we bought that, then she found 
out from the software company that they keep another lock 
behind--protection behind that and can--and actually can 
release the system. But they get you to think we have 
incredible capability.
    I was in a General Motors car. I love the--you had it 
displayed here--the teenager device. I just told the Gonzaga 
High School, I spoke there just--I think it was yesterday. I 
told all those teenagers what's coming. And they were aghast, 
you know.
    But the things you can do are unbelievable. And I told the 
class, too, I said: Your biggest--you know, whoever was paying 
attention to Paris and the terrorist threat--but those kids get 
in a car and that is the biggest cause of death for our 
teenagers. We've gotten deaths down from 43,000 to 33,000. But 
a huge percentage of those are kids. And the device I saw in 
the General Motors car was pretty astounding, how you can 
control that.
    But, again, I guess a question more than the comment is, 
the private sector's come up with some incredible innovations. 
You're setting standards and trying to protect the owner and 
the consumer. You've got a good association coming together 
trying to bring folks together. I'm anxious to see your report, 
I guess you cited, Mr. Garfield, that was just turned over. The 
role and scope of government in all this, like the chairman 
said, we usually overlegislate and then the government usually 
overregulates. So trying to get it right, you want to also 
protect rights, which Ms. Barnes has said.
    And I hammered on DOT because it's now 3 years ago I said 
let's see where we're going with this and tried to set a 
schedule, which hasn't been adhered to. So a bit of frustration 
in that. It is complicated. They need to work with you. It 
sounds like for the most part they are. We don't want them to 
come out with standards or requirements or technology mandates 
that are obsolete or by the time we enact them sometimes 
they've an overreach. So that's a challenge we face.
    Maybe in closing any quick guidance on how to proceed? Mr. 
Lightsey, I want to hear from the private sector. I know we're 
going down a certain path, but what do you think, again, the 
proper role of government?
    The standards, I've worked with NHTSA. And I just told Ms. 
Duckworth I tried to get a biometric standard after 9/11. That 
was three times I put in law a biometric standard for iris. And 
I think we may be there, it's 12 years later. Hauled them in, 
tried to get them, they're very difficult to nail down. And 
with changing technology, you've got sort of it's like trying 
to change the wheels on a vehicle that's moving down the 
highway at 75 miles an hour.
    But tell me how you would like to see this unfold, Mr. 
Lightsey, Mr. Lobenstein, and Mr. O'Connell, the three guys who 
are representing the companies that actually produce vehicles. 
Go ahead.
    Mr. Lightsey. Yes. So thank you, Mr. Chairman. And with all 
due respect, our industry can't afford to wait for government 
and we're not doing that. We're investing a substantial amount 
of resources and energy into innovating with our products and 
services to make our products safer and to make them more 
enjoyable by our customers who are----
    Mr. Mica. Now, once again I have to nail you down. What's 
the proper role of government regulation, law? Where do we go?
    Mr. Lightsey. Well, as I was saying, Mr. Chairman, I think 
our industry has shown time and again that we can and do work 
well together for our customers. And I think that the industry 
needs the freedom to innovate and to do that work.
    Mr. Mica. And who in government would you put? Should we 
leave it with NHTSA or DOT or where? How should it be 
structured, responsibility from the Federal level?
    Mr. Lightsey. From the Federal level, we work well with 
NHTSA, we have a good relationship with them, and we've proven 
that we can do that. I think that in this space obviously the 
Federal Trade Commission is active in this space, and we've 
begun to work with them as well, and we will work with whatever 
agencies that Congress in its wisdom decides are the ones that 
need to be involved in this.
    Mr. Garfield. If I could interject----
    Mr. Mica. Well, after I hear from Lobenstein and O'Connell. 
I didn't really get a real handle on--we haven't even talked 
the FTC. God, no.
    Let me hear your take, Mr. Lobenstein.
    Mr. Lobenstein. Thank you, Mr. Chairman. I think, first of 
all, we appreciate the work that has taken place between the 
auto industry and NHTSA so far on DSRC. That's been a 15-year-
long road to get to where we are today, and we think we have a 
good technology that's ready to go. And once we get this 
spectrum issue closed, I think we can move forward with that 
safety-of-life mission that DSRC promises us.
    In terms of cybersecurity, you know, we've looked at the 
NIST framework, and we think that NIST is a good agency for us 
to partner with and as an industry to create the same types of 
best practices and self-guiding principles that we've already 
done in terms of privacy and security.
    Mr. Mica. NHTSA at one level, NIST at another level?
    Mr. Lobenstein. Yes, sir.
    Mr. Mica. Okay. Mr. O'Connell.
    Mr. O'Connell. Mr. Chairman, a couple issues of principle 
and then a direct answer to your question.
    You know, it's all about incentives. At Tesla no one could 
be more interested in our own survival, especially as a small 
young company, than we are. So putting the right incentives in 
place is key.
    I think that whatever we do and whatever agency it resides 
in, we need to foster innovation, number one, and then sharing. 
So putting the proper incentives in place to innovate and to 
share.
    I think an instructive case of how this proceeded was 
advanced emergency braking, where rather than resisting an 
impulse to regulate, NHTSA and other agencies fostered the sort 
of development of the technology and then encouraged the 
deployment of that technology and did so, as far as I know, 
without the benefit of any sort of regulatory norms.
    The hazard with standards is that of course in a long 
process you move toward lowest-common-denominator behavior, and 
so that's to be encouraged in some cases, but not--I mean, the 
standard-setting process--but not wholly appropriate in 
innovative arenas like this.
    As to the agencies, I don't have any particular point of 
view, I'm afraid to say.
    Mr. Mica. Okay.
    Mr. Garfield.
    Mr. Garfield. The only thing I would add is that one of the 
real challenges here is that these are cross-cutting issues 
that impact and implicate multiple agencies. And one way that 
Congress could certainly help is bringing order to that by 
making sure that there is greater coordination among all the 
agencies.
    So it's not to suggest NHTSA be cut out and the Department 
of Commerce be brought in. It's really Congress can play a 
critical role in making sure the FTC, the FCC, NHTSA, and NIST 
at the Department of Commerce are actually coordinating and 
working with each other to achieve the things that we all have 
in mind.
    Mr. Mica. Well, again--you did a very good job, Ms. Barnes, 
giving us your agenda recommendations. Thank you-- on the 
privacy side--but thank you for participating.
    I look forward hearing back, seeing some of your plans, 
sir.
    What I'd like to do is we'll leave the record open, without 
objection, for 10 days. We may have additional questions, there 
are quite a few here that we didn't even get to, to submit to 
the witnesses. They'll be made part of the record.
    So without objection, that's so ordered.
    Mr. Mica. And, again, I'm looking forward to having a 
report and the other items we requested today from NHTSA made 
part of the record.
    And, again, thank you, each of you. Very interesting. 
Probably they'll look back in 10 years and we'll have made such 
incredible progress. But we want to do the right thing at this 
important juncture, and that's bringing out these issues, and 
your progress and where we need to go is important.
    So there being no further business before the subcommittee, 
the dual subcommittees here, we will adjourn this hearing. 
Thank you.
    [Whereupon, at 4:12 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
               

                                 [all]
                                 
</pre></body></html>
